FEDERAL BUREAU OF INVESTIGATION

  ANNUAL FINANCIAL STATEMENTS

       FISCAL YEAR 2010

         U.S. Department of Justice

       Office of the Inspector General

                Audit Division


            Audit Report 11-07

             December 2010

          FEDERAL BUREAU OF INVESTIGATION

            ANNUAL FINANCIAL STATEMENTS

                  FISCAL YEAR 2010


              OFFICE OF THE INSPECTOR GENERAL

                 COMMENTARY AND SUMMARY


      This audit report contains the Annual Financial Statements of the
Federal Bureau of Investigation (FBI) for the fiscal years (FY) ended
September 30, 2010, and September 30, 2009. Under the direction of the
Office of the Inspector General (OIG), KPMG LLP performed the FBI’s audit in
accordance with U.S. generally accepted government auditing standards.
The audit resulted in an unqualified opinion on the FY 2010 financial
statements. An unqualified opinion means that the financial statements
present fairly, in all material respects, the financial position and the results
of the entity’s operations in conformity with U.S. generally accepted
accounting principles. For FY 2009, the FBI also received an unqualified
opinion on its financial statements (OIG Report No. 10-11).

       KPMG LLP also issued reports on internal control and on compliance
and other matters. For FY 2010, the Independent Auditors’ Report on
Internal Control over Financial Reporting identified one significant deficiency.
The FY 2010 significant deficiency related to the FBI not adequately
monitoring its certification and accreditation process and its security
assessments. Specifically, the FBI did not consistently maintain and enforce
information technology security policies in accordance with current National
Institute of Standards and Technology, the Department of Justice
Information Technology Security Standard, and the FBI Certification and
Accreditation Handbook policies and procedures during a significant portion
of FY 2010.

      In the FY 2010 Independent Auditors’ Report on Compliance and Other
Matters, the auditors concluded that the FBI’s financial management
systems did not substantially comply with federal financial system
requirements and the United States Standard General Ledger at the
transaction level as required by the Federal Financial Management
Improvement Act of 1996 (FFMIA). This non-compliance with the FFMIA was
also reported for FY 2009.




                                      -i-
       The OIG reviewed KPMG LLP’s reports and related documentation and
made necessary inquiries of its representatives. Our review, as
differentiated from an audit in accordance with U.S. generally accepted
government auditing standards, was not intended to enable us to express,
and we do not express, an opinion on the FBI’s financial statements,
conclusions about the effectiveness of internal control, conclusions on
whether the FBI’s financial management systems substantially complied with
the FFMIA, or conclusions on compliance with laws and regulations.
KPMG LLP is responsible for the attached auditors’ reports dated
November 3, 2010, and the conclusions expressed in the reports. However,
our review disclosed no instances where KPMG LLP did not comply, in all
material respects, with U.S. generally accepted government auditing
standards.




                                   - ii -
              FEDERAL BUREAU OF INVESTIGATION 

                ANNUAL FINANCIAL STATEMENTS 

                      FISCAL YEAR 2010


                             TABLE OF CONTENTS
                                                                             PAGE


MANAGEMENT'S DISCUSSION AND ANALYSIS......................................... 3


INDEPENDENT AUDITORS' REPORTS


  REPORT ON FINANCIAL STATEMENTS ............................................... 25


  REPORT ON INTERNAL CONTROL OVER FINANCIAL REPORTING ........... 27


  REPORT ON COMPLIANCE AND OTHER MATTERS ................................ 31


PRINCIPAL FINANCIAL STATEMENTS AND RELATED NOTES


  CONSOLIDATED BALANCE SHEETS ................................................... 39


  CONSOLIDATED STATEMENTS OF NET COST...................................... 40


  CONSOLIDATED STATEMENTS OF CHANGES IN NET POSITION............. 41


  COMBINED STATEMENTS OF BUDGETARY RESOURCES........................ 42


  NOTES TO THE FINANCIAL STATEMENTS........................................... 43


REQUIRED SUPPLEMENTARY INFORMATION


  COMBINING STATEMENTS OF BUDGETARY RESOURCES ...................... 69


APPENDIX


  OFFICE OF THE INSPECTOR GENERAL ANALYSIS AND SUMMARY OF

  ACTIONS NECESSARY TO CLOSE THE REPORT ................................... 73

This page intentionally left blank.

U.S. DEPARTMENT OF JUSTICE


FEDERAL BUREAU OF INVESTIGATION



  MANAGEMENT’S DISCUSSION AND ANALYSIS
             (UNAUDITED)




                  -1-
This page intentionally left blank.





            -2-
                 Management’s Discussion and Analysis


                                  U.S. DEPARTMENT OF JUSTICE

                               FEDERAL BUREAU OF INVESTIGATION

                             MANAGEMENT’S DISCUSSION AND ANALYSIS

                                          (UNAUDITED)


MISSION
The Federal Bureau of Investigation (FBI or Bureau) is a component of the United States (U.S.)
Department of Justice (DOJ, or the Department) and a member of the U.S. Intelligence Community (IC).
The mission of the FBI is to protect and defend the U.S. against terrorist and foreign intelligence threats,
to uphold and enforce the criminal laws of the U.S., and to provide leadership and criminal justice
services to federal, state, municipal, and international agencies and partners.
After the events of September 11, 2001, Director Robert Mueller set the priorities of the FBI to
communicate how the FBI would address its wide range of responsibilities. In executing the following
priorities, the FBI produces and uses intelligence to protect the nation from threats and to bring to justice
those who violate the law. The first eight priorities are listed in order of precedence. The final two are
all-encompassing functions that support the Bureau’s mission and objectives. The ten priorities are:
        1.       Protect the U.S. from terrorist attack;
        2.       Protect the U.S. against foreign intelligence operations and espionage;
        3.       Protect the U.S. against cyber-based attacks and high-technology crimes;
        4.       Combat public corruption at all levels;
        5.       Protect civil rights;
        6.       Combat transnational and national criminal organizations and enterprises;
        7.       Combat major white-collar crime;
        8.       Combat significant violent crime;
        9.       Support federal, state, local, and international partners; and
        10.      Upgrade technology to successfully perform the FBI's mission.
The DOJ has implemented three Strategic Goals: Goal 1: Prevent Terrorism and Promote the Nation’s
Security; Goal 2: Prevent Crime, Enforce Federal Laws, and Represent the Rights and Interests of the
American People; and Goal 3: Ensure the Fair and Efficient Administration of Justice. The FBI reports
on two of three DOJ Strategic Goals. Priorities 1 through 3 support DOJ Goal 1; priorities 3 through 8
support DOJ Goal 2, and priorities 9 and 10 support both goals.
ORGANIZATION STRUCTURE
In addition to national headquarters located in Washington, D.C., the FBI operates 56 field offices and
over 350 resident agencies across the U.S. and its territories. Support offices are also located across the
country: training centers, forensic laboratories, and engineering research facilities in Quantico, Virginia;
operational support centers in Savannah, Georgia and Butte, Montana; a services center unit in Pocatello,
Idaho; a records storage facility in Frederick County, Virginia; the Hazardous Devices School at Redstone
Arsenal, Alabama; and a fingerprint identification and Criminal Justice Information Services center in
Clarksburg, West Virginia.




Federal Bureau of Investigation                      -3-
                Management’s Discussion and Analysis


Through its Legal Attaché Program, the FBI operates 61 offices (Legats) with 14 sub-offices in 65
countries. The FBI Legat coverage extends to over 200 countries, territories, and islands.
FBI Headquarters is organized into five main branches headed by Executive Assistant Directors, and
several supporting divisions that are headed by Assistant Directors. Each of the FBI's 56 field offices are
headed by a Special Agent in Charge (SAC), with the exception of the three largest offices - Los Angeles,
New York, and Washington, D.C. - which are headed by an Assistant Director in Charge. SACs are
assisted by two or more Assistant Special Agents in Charge, including one serving as the Intelligence
Program Manager. As of September 30, 2010, the FBI employed 13,837 Special Agents and 21,596
professional support staff.
FINANCIAL STRUCTURE
The FY 2005 Consolidated Appropriations Act established a budget structure of four decision units:
•   Intelligence;
•   Counterterrorism/Counterintelligence (CT/CI);
•   Criminal Enterprises and Federal Crimes; and
•   Criminal Justice Services (CJS).
Costs of support functions, such as the Training Division and administrative activities, are prorated across
these four decision units, capturing the total cost of each of the four major mission areas represented by
the decision units. The resources for these support functions are divided based on the share of the
operational (non-support) resources allocated to the core functions of each decision unit. For example,
the share of the total operational resources dedicated to CT/CI was the same as the share of the total
support resources allocated to the CT/CI decision unit.
This budget structure links strategic planning to full program costing. The budget structure also provides
an accurate cost assessment of the FBI’s primary missions and enables the development of performance
measures and program costing based on those missions.
For purposes of executing its budget, the FBI’s funds are organized into the following categories under
the administrative and/or operational control of the FBI: appropriated single, multi-year, and no-year
Salaries and Expense Funds; appropriated no-year Construction Funds; and no-year Violent Crime
Reduction Program Trust Funds. These funds include new appropriations, transfers of appropriations
from other federal agencies, and the carry-over of prior years’ unobligated balances for multi-year and no-
year appropriated funds. Some special appropriations are tied to specific programs, but in general, FBI
funds are organized to support multiple programs.
ANALYSIS OF FINANCIAL STATEMENTS
The FBI’s financial statements received an unqualified audit opinion for FYs ended September 30, 2010
and 2009. These financial statements have been prepared from the accounting records of the FBI in
conformity with U.S. generally accepted accounting principles issued by the Federal Accounting
Standards Advisory Board (FASAB) and presentation guidelines in the Office of Management and
Budget (OMB) Circular A-136, Financial Reporting Requirements.




Federal Bureau of Investigation                    -4-
                Management’s Discussion and Analysis


The FBI’s total assets increased $771.6 million or 14 percent primarily due to an increase in Fund
Balance with Treasury and General Property, Plant and Equipment (PP&E). Fund Balance with Treasury
increased $402.2 million or 12 percent due to an overall increase of 8 percent in the FY 2010
appropriation over FY 2009. PP&E increased $382.7 million or 21 percent due to the recognition of
capital plant assets and equipment. Some of the capital assets include completed software
implementation projects, improvements to buildings leased by the FBI, and high performance aircraft to
support the mission of the organization.
Total Liabilities increased $151.6 million or 11 percent, where the bulk of the increase is represented in
the Accounts Payable with the public and in the Intragovernmental Other Liabilities line item. The FBI
establishes obligations in anticipation of liquidating the claims by vendors for goods provided and
services performed. The FBI recognizes these claims as current liabilities and anticipates the outlays for
the goods and services once the claims come due. The majority of the current liabilities were related to
Automated Data Processing (ADP) services, support services for software development, and maintenance
and engineering services. Intragovernmental Other Liabilities increased $27.1 million or 31 percent
primarily due to advance payments from the Intelligence Community for services to be performed by the
FBI.
The Net Position of the FBI increased $620.1 million or 15 percent in FY 2010. Net Position represents
the net investment of the U.S. government in the FBI and is comprised of the Unexpended Appropriations
and the Cumulative Results of Operations.
Unexpended Appropriations increased $140.6 million or 7 percent which includes the portion of the
entity’s appropriations represented by undelivered orders and unobligated balances. This increase is
largely attributable to the increase of $586.4 million or 8 percent in the FY 2010 appropriation over
FY 2009 for the Bureau’s discretionary and non-discretionary expenditures. Additionally, the FBI
received a net increase of $90.1 million of Nonexpenditure Transfers related to additional funding for
Category B projects, for which project execution will continue past FY 2010.
Cumulative Results of Operations increased $479.5 million or 25 percent. The Cumulative Results of
Operations are adjusted annually by the results of operations and by other items. Increases (gains) occur
when the results of operations show an excess of financing sources and gains over expenses, losses, and
transfers out. This increase is attributable to the additions of capital assets in the PP&E category.




Federal Bureau of Investigation                   -5-
                Management’s Discussion and Analysis


Table 1 presents the sources of financing for FBI resources distinguished by Earned Revenue, Budgetary,
and Other Financing Sources. Table 2 describes how the FBI spent its resources, divided across Strategic
Goals 1 and 2.
                                      Table 1. Source of FBI Resources
                                           (Dollars in Thousands)
                             Source                                  FY 2010           FY 2009       Change%
Earned Revenue                                                  $     1,275,206    $    1,279,292          0%
Budgetary Financing Sources
  Appropriations Received                                             7,922,537         7,336,191          8%
  Appropriation Transferred-In/Out                                       90,116            (8,978)      1104%
  Other Adjustments and Other Budgetary Financing Sources               (50,000)              -            n/a
Other Financing Sources
  Transfers-In/Out Without Reimbursement                                 69,206            61,342         13%
  Imputed Financing from Costs Absorbed by Others                       354,864           207,505         71%
Total                                                           $     9,661,929    $    8,875,352          9%


                                   Table 2. How FBI Resources are Spent
                                           (Dollars in Thousands)
                       Strategic Goal (SG)                          FY 2010            FY 2009       Change%
SG 1: Prevent Terrorism and Promote the Nation's Security
                                                       Gross Cost $  5,185,327     $    4,220,194
                                            Less: Earned Revenue       507,996            560,603
                                                        Net Cost     4,677,331          3,659,591         28%
SG 2: Prevent Crime, Enforce Federal Laws, and Represent the
Rights and Interests of the American People
                                                      Gross Cost $    3,846,770    $    3,819,673
                                           Less: Earned Revenue         767,210           718,689
                                                       Net Cost       3,079,560         3,100,984        (1%)

                                               Total Gross Cost       9,032,097         8,039,867
                                    Less: Total Earned Revenue        1,275,206         1,279,292
                                    Total Net Cost of Operations $    7,756,891    $    6,760,575         15%



FY 2010 Financial Highlights
Strategic Goal 1, Prevent Terrorism and Promote the Nation’s Security, includes the FBI’s CT/CI
Program, Intelligence Program, Computer Intrusions Program, and Weapons of Mass Destruction (WMD)
Program. In FY 2010, Goal 1 Net Cost was $4.7 billion, a net increase of 28 percent from FY 2009. The
increase is attributed to additional activity in Computer Intrusions, Counterterrorism, and WMD
Response and an increase of Intelligence positions, particularly analysts. This can also be attributed to an
overall increase in national security investigative activity.
Strategic Goal 2, Prevent Crime, Enforce Federal Laws, and Represent the Rights and Interests of
the American People, includes the majority of the FBI's criminal investigative programs and programs
supporting state and local law enforcement. Investigations under Goal 2 include Organized Crime, Drugs,
Violent Crime, White-Collar Crime, and Cyber Crime. The FBI investigates more than 200 categories of
federal crimes, and monitors activities that threaten the safety of U.S. citizens. Support activities in this


Federal Bureau of Investigation                    -6-
                Management’s Discussion and Analysis


goal include training programs for state and local law enforcement agencies, forensic assistance,
fingerprint and other identification tools, and statistical crime data. In FY 2010, Goal 2 Net Cost was
$3.1 billion, a net decrease of 1 percent from FY 2009. The change is attributed to comparatively steady
Goal 2 investigative activity, offset by increases in identification service fee revenues.
PERFORMANCE INFORMATION
Data Reliability and Validity
Data reliability and validity are critically important to the FBI’s planning and performance. This
document includes a discussion of data validation, verification, and data limitations for each performance
measure presented. Each reporting component ensures that data meet the following criteria:
        At a minimum, performance data are considered reliable if transactions and other data that
        support performance measures are properly recorded, processed, and summarized to permit the
        preparation of performance information in accordance with criteria stated by management.
        Performance data need not be perfect to be reliable, particularly if the cost and effort to secure
        the best performance data possible will exceed the value of any data so obtained.
Performance measures included in previous FBI MD&A documents may have changed as a result of new
information that was unavailable prior to submitting previous financial reports. Due to the requirement to
disclose performance data in the MD&A before the close of the data entry period, reports of certain
FY 2010 performance measures should be considered tentative and are annotated accordingly. Other
subsequent changes to prior year data may have occurred due to factors beyond the control of the FBI’s
data collection systems (e.g., convictions overturned on appeal). For previously estimated measures, the
FBI reviewed and revised selected FY 2009 performance data from the FY 2009 MD&A. The FBI’s
FY 2011 Authorization and Budget Request to Congress documented these revisions.




Federal Bureau of Investigation                   -7-
                 Management’s Discussion and Analysis


FY 2010 REPORT ON SELECTED ACCOMPLISHMENTS

STRATEGIC GOAL 1: Prevent Terrorism and Promote the Nation’s Security 60 percent of the
FBI’s Net Cost supports this Goal.

PROGRAM: Counterterrorism
Background/Program Objectives: The FBI is committed to stopping terrorism at any stage, from
thwarting those intending to conduct a terrorist act, to investigating financiers of terrorist operations. All
CT investigations are managed at FBI Headquarters by the Counterterrorism Division (CTD). CTD
provides a centralized, comprehensive, and intelligence-driven approach to addressing both international
and domestic terrorism-related matters.
Under the leadership of Director Mueller, the FBI has overhauled CT operations, expanded its
intelligence capabilities, modernized its business practices and technology, and improved coordination
with its partners. The FBI is dedicated to disrupting
terrorist plots before they are executed.
                                                                                         Catastrophic Acts of

Performance Measure: MEASURE REVISED:                                                         Terrorism

Catastrophic Acts of Terrorism
                                                                               4
                                                                          4
Note: This measure was revised, and replaces similar
measures reporting separately on acts of international                    3
terrorism and domestic terrorism. A catastrophic terrorist
act is defined as an act resulting in significant loss of life            2
and/or significant property damage (e.g., each of the
                                                                          1
individual attacks that took place on September 11, 2001,                            0    0     0    0     0    0     0    0     00
the attack on the Alfred P. Murrah Federal Building in                    0
Oklahoma City on April 19, 1995).                                             FY01       FY03       FY05       FY07       FY09
                                                                                              Actuals      Target
        FY 2001 Actual Performance: 4 

                                                                  Data Definitions: Terrorist Acts, domes ic or internationally-
        FY 2002 Actual Performance: 0 
                           based, count separate incidents that involve the “unlawful use of
                                                                  force and violence against persons or property to intimidate or
        FY 2003 Actual Performance: 0 
                           coerce a government, the civilian population, or any segment
                                                                   hereof, in furtherance of political or social objectives.” (28
                                                                  C.F.R. Section 0.85). For the purposes of this performance
        FY 2004 Actual Performance: 0 
                           measure, a catastrophic terrorist act is defined as an act
                                                                  resulting in significant loss of life and/or significant property
        FY 2005 Actual Performance: 0 
                           damage.

                                                                  Data Collection and Storage: The reported numbers were
        FY 2006 Actual Performance: 0 
                           compiled through the expert knowledge of FBI CT senior
                                                                  management at headquarters.
        FY 2007 Actual Performance: 0 

                                                                  Data Validation and Verification: All data has been approved
        FY 2008 Actual Performance: 0 
                           and validated by subject matter experts and executives in the
                                                                  FBI’s Counterterrorism Division.
        FY 2009 Actual Performance: 0 
                           Data Limitations: The decision to count or discount an incident
                                                                  as a terrorist act, according to the above definition, is subject to
        FY 2010 Target: The target for this measure will
         change based upon the latest available intelligence information
                                                                  and the opinion of program managers. In addition, acts of
        always be zero.
                                          terrorism, by their nature, are impossible to reduce to uniform,
                                                                  reliable measures.
        FY 2010 Actual Performance: 0 

Discussion of FY 2010 Results: The FBI has achieved its target for this measure for FY 2010.




Federal Bureau of Investigation                       -8-
                Management’s Discussion and Analysis


STRATEGIC GOAL 2: Prevent Crime, Enforce Federal Laws, and Represent the Rights and
Interests of the American People 40 percent of the FBI’s Net Cost supports this Goal.

PROGRAM: Criminal Enterprises
Background/Program Objectives: During FY 2004 and the first half of FY 2005, the Criminal
Investigative Division at FBI Headquarters reorganized several of its programs. Performance data are
reported to reflect the realigned focus of the FBI toward these types of criminal enterprises.

Organized Criminal Enterprises
Investigative subprograms that focus on criminal enterprises involved in sustained racketeering activities
and that are mainly comprised of ethnic groups with ties to Asia, Africa, the Middle East, and Europe are
consolidated into the Organized Criminal Enterprise Program. Organized criminal enterprise
investigations, through the use of the Racketeering Influenced Corrupt Organization statute, target the
entire entity responsible for the crime problem.
With respect to groups involved in racketeering
activities, the FBI focuses on: the
                                                                       Organized Criminal
Russian/Eastern European/Eurasian organized                          Enterprises Dismantled
crime groups, Asian criminal enterprises, La
Cosa Nostra and Italian organized crime groups,           50
                                                                                     43      43
Balkan/Albanian organized crime groups,                                                   38     3736
                                                          40                  34 36
Middle Eastern criminal enterprises and African                           29
criminal enterprises. Each of these groups is             30
                                                             21
engaged in myriad criminal activities.                    20     17 17

Performance Measure: Organized Criminal                    10
Enterprises Dismantled
                                                             0
        FY 2001 Actual Performance: 21                           FY01      FY03       FY05        FY07       FY09

        FY 2002 Actual Performance: 17                                            Actual     Target
        FY 2003 Actual Performance: 17               Data Definition: Dismantlement means destroying the targeted
                                                     organization’s leadership, financial base, and supply network such that
        FY 2004 Actual Performance: 29                he organization is incapable of operating and/or reconstituting itself.

                                                     Data Collection and Storage: The data source is the FBI's Integrated
        FY 2005 Actual Performance: 34               Statistical Reporting and Analysis Application (ISRAA) database that
                                                     tracks accomplishments from inception to closure.
        FY 2006 Actual Performance: 36               Data Validation and Verification: Before data are entered into the
                                                     system, they are reviewed and approved by an FBI field manager, and
        FY 2007 Actual Performance: 43               subsequently verified through inspection. Inspections occur at least
                                                     once annually, tracing sampled data to source documents contained in
        FY 2008 Actual Performance: 38               FBI files.
                                                     Data Limitations: FBI field personnel are required to enter
        FY 2009 Revised Performance: 43              accomplishment data within 30 days of the accomplishment or a change
                                                     in the status of an accomplishment, such as those resulting from
        FY 2010 Target:                  36          appeals. Data for this report are compiled less than 30 days after the
                                                     end of the fiscal year, and thus may not fully represent he
        FY 2010 Actual Performance: 37               accomplishments during the reporting period.

Discussion of FY 2010 Results: The FBI met its

performance target for FY 2010. Three notable dismantlements are listed below.

The FBI’s Dallas Field Office and the Denton County Sheriff’s Office conducted an Organized Crime 

Drug Enforcement Task Force (OCDETF) investigation entitled Operation Bad Dream which targeted the




Federal Bureau of Investigation                   -9-
                 Management’s Discussion and Analysis


Albanian Organized Crime (AOC) group of Benny Lusha. The Benny Lusha Organization (BLO) was
involved in international narcotics trafficking, human smuggling, interstate transportation of stolen
property, public corruption, money laundering, mortgage fraud, and income tax fraud. Operation Bad
Dream was closely coordinated with other investigations of AOC associates of the BLO. The BLO
obtained narcotics from Mexican sources and distributed narcotics throughout the United States and
Europe. Drug proceeds were laundered through front businesses and real estate. To date, $170,000 in
bribe money and $610,000 of narcotics proceeds have been seized. The trial of the two alleged BLO
leaders is set for January 2011.
The Cleveland Field Office of the FBI, along with the Toledo Police Department, executed search
warrants on three Toledo area clothing and shoe retail locations. The purpose of the search warrants was
to seize counterfeit merchandise sold from these locations. Approximately $1.1 million worth of
counterfeit merchandise was seized from the three locations. Several Ohio, Michigan, New York and
China distributors were identified as being suppliers of counterfeit goods. The investigation concluded
with four federal informations and four federal convictions.
The FBI, Drug Enforcement Administration (DEA), Secret Service and Cambodian National Police (CNP)
jointly conducted an investigation targeting an Asian Criminal Enterprise involved in distributing heroin,
ecstasy, and North Korean counterfeit U.S. currency known as “Supernotes.” In October 2009, the FBI
conducted a buy/bust in Phnom Penh, Cambodia, of two kilograms of heroin. Subsequently, the CNP
conducted search warrants at five separate locations, including a "Mega Lab" for the production of crystal
methamphetamine. Agents seized an additional fifteen kilograms of Asian heroin, two kilograms of
crystal methamphetamine, over one ton of precursor chemicals and the equipment to manufacture crystal
methamphetamine. Eleven indictments were issued in Cambodia and eight arrests were made, including
the head of the CNP Anti-Narcotics Division. The source of the Supernotes was identified and indicted,
but remains a fugitive.

Gangs/Criminal Enterprises
The mission of the FBI’s Gangs/Criminal Enterprise Program is to disrupt and dismantle domestic cells
(local, regional, national, and transnational) of criminal enterprises with ethnic ties to North, Central, and
South America that pose the greatest threats to the economic and national security of the U.S. This is
accomplished through the FBI’s Violent Gang and Drug Programs, Major Theft initiatives, increased
involvement in the OCDETF Program, and support and leadership of high-intensity drug trafficking area
initiatives. In recent years, the FBI has concentrated anti-gang efforts in the Mara Salvatrucha (MS-13)
National Gang Task Force, which develops local, state, federal, and international investigations of the
MS-13 and 18th Street transnational criminal gangs into national and international investigations and
prosecutions.
The National Gang Intelligence Center (NGIC) supports this mission by sharing and coordinating
information among state, local, and federal law enforcement agencies. The NGIC analyzes a broad
spectrum of gang information to identify migration patterns and current trends.
The Gang Targeting and Coordination Center focuses on enhancing gang investigations conducted by
federal agencies by acting as a deconfliction and case coordination center. It facilitates operations across
agency lines and promotes the complete dismantlement of national and transnational violent gangs.
Tactical and strategic intelligence is shared between law enforcement agencies in conjunction with the
NGIC.




Federal Bureau of Investigation                    - 10 -
                   Management’s Discussion and Analysis


Performance Measure: Gangs/Criminal Enterprises Dismantled
Note: These measures do not include Consolidated Priority Organization Target (CPOT)-linked
dismantlements, which are recorded below.
         FY 2001 Actual Performance: 240
         FY 2002 Actual Performance: 185
                                                                                          Gangs/Criminal
         FY 2003 Actual Performance: 138                                               Enterprises Dismantled
                                                                 300
         FY 2004 Actual Performance: 112
                                                                        240
                                                                 250
         FY 2005 Actual Performance: 138
                                                                 200           185
         FY 2006 Actual Performance: 119
                                                                                      138         138          144          135
                                                                 150                                     119
         FY 2007 Actual Performance: 144                                                    112                       114
                                                                                                                                   101 99
                                                                 100
         FY 2008 Actual Performance: 114
                                                                   50
         FY 2009 Revised Performance: 135
                                                                    0
         FY 2010 Target:                          99                    FY01         FY03         FY05         FY07         FY09


         FY 2010 Actual Performance: 101                                                    Actual       Target

Discussion of FY 2010 Results: The FBI has                   Data Definition: Dismantlement means destroying the targeted
                                                             organization’s leadership, financial base, and supply network such that the
slightly exceeded its target for this measure.               organization is incapable of operating and/or reconstituting itself.

During FY 2010 the FBI established 11 new        Data Collection and Storage: The data source is the FBI's ISRAA
                                                 database that tracks accomplishments from inception to closure.
Violent Gang Safe Streets Task Forces.
                                                 Data Validation and Verification: Before data are entered into the system,
Operation Save Our Streets was a 90-day blitz, they are reviewed and approved by an FBI field manager, and subsequently
implemented in response to significant           verified through inspection. Inspec ions occur at least once annually, tracing
                                                 sampled data to source documents contained in FBI files.
increases in gang-related robberies and
                                                 Data Limitations: FBI field personnel are required to enter
homicides in Los Angeles. The operation          accomplishment data within 30 days of he accomplishment or a change in
was implemented under the umbrella of the        the status, such as those resulting from appeals. Data are compiled less
                                                 than 30 days after the end of the fiscal year, and thus may not fully
FBI’s existing Safe Streets Task Force with      represent the accomplishments during the reporting period.
the Los Angeles Police Department. FBI
agents and task force officers jointly
investigated 110 gang homicides, solving 24 during the collaboration.

Gangs/Criminal Enterprises - CPOT Drug Trafficking Organizations (DTOs)
In FY 2003 the DOJ developed a single national list of criminal enterprises engaged in major drug
trafficking and money laundering organizations. This list of targets, the CPOT List, is updated
periodically and reflects the most significant international narcotic suppliers (and related money
laundering organizations), poly-drug traffickers, clandestine drug manufacturers and producers, and major
drug transporters supplying the U.S.
The FBI has developed a comprehensive counter-drug strategy designed to investigate and prosecute
illegal drug traffickers and distributors, reduce drug related crime and violence, provide assistance to
other law enforcement agencies, and strengthen international cooperation. The strategy focuses the FBI's
counter-drug resources on 69 identified CPOTs associated primarily with Colombian, Mexican, and
Caribbean drug trafficking organizations with the most adverse impact on U.S. national interests.




Federal Bureau of Investigation                             - 11 -
                Management’s Discussion and Analysis


Performance Measure: CPOT-linked DTOs
                                                                          CPOT-linked DTOs Dismantled
Dismantled
                                                              25
        *FY 2001 Actual Performance: 18                                                                                20
                                                              20 18                          18     17           18
        *FY 2002 Actual Performance: 16                                   16
                                                                                 15                        15                     15
                                                              15                        12
        FY 2003 Actual Performance: 15
                                                              10
                                                                                                                             6
        FY 2004 Actual Performance: 12
                                                              5
        FY 2005 Actual Performance: 18                        0
                                                                   FY01         FY03         FY05         FY07        FY09
        FY 2006 Actual Performance: 17
                                                                                       Actual     Target
        FY 2007 Actual Performance: 15
                                                       Data Definition: Dismantlement means destroying the organiza ion’s
        FY 2008 Actual Performance: 18                 leadership, financial base, and supply network such that the organiza ion
                                                       is incapable of operating and/or reconstitu ing itself.
        FY 2009 Actual Performance: 20
                                                       Data Collection and Storage: The data source is the FBI's ISRAA
                                                       database that tracks accomplishments from inception to closure.
        FY 2010 Target:                   15
                                                       Data Validation and Verification: Data are reviewed and approved by
        FY 2010 Actual Performance: 6                  an FBI field manager, and subsequently verified through inspection.
                                                       Inspections occur at least annually, tracing sampled data to source
Discussion of FY 2010 Results: The FBI did             documents in FBI files. In addition, program managers at FBI HQ verify
                                                       each investigation’s link to an organization on the CPOT list.
not reach the target for this measure in FY 2010
                                                       Data Limitations: FBI field personnel are required to enter
because budget and agent resources were                accomplishment data within 30 days of the accomplishment or a change
reduced. The inability of the OCDETF Program           in the status, such as those resulting from appeals. Data are compiled
                                                       less than 30 days after the end of the fiscal year, and thus may not fully
to receive adjustment-to-base funding for its          represent the accomplishments during the reporting period.
investigative resources resulted in a reduction of
personnel available to conduct high-intensity
                                                                           CPOT-linked DTOs Disrupted
investigations resulting in dismantlements. In                       49                                               50
FY 2011 the program is slated to receive a                    50                                                45
funding enhancement for additional resources                                      41
                                                              40                                         36                  35
that will be placed in Southwest Border                                    30                                                      32
                                                                                                                                     30
OCDETF Strike Forces to target CPOT-linked                    30                          27      25
organizations.                                                20
Performance Measure: CPOT-linked DTOs                         10
Disrupted
                                                               0
        *FY 2001 Actual Performance: 49                            FY01          FY03           FY05          FY07          FY09

        *FY 2002 Actual Performance: 30                                                  Actual        Target

        FY 2003 Actual Performance: 41                 Data Definition: Disruption means impeding the normal and effective
                                                       operation of the targeted organization, as indicated by changes in
                                                       organizational leadership and/or changes in methods of operation,
        FY 2004 Actual Performance: 27                 including, for example, financing, trafficking patterns, communications or
                                                       drug production.
        FY 2005 Actual Performance: 25
                                                       Data Collection and Storage: The data source is the FBI's ISRAA
                                                       database that tracks accomplishments from inception to closure.
        FY 2006 Actual Performance: 36
                                                       Data Validation and Verification: Data are reviewed and approved by
        FY 2007 Actual Performance: 45                 an FBI field manager, and subsequently verified through inspection.
                                                       Inspections occur at least annually, tracing sampled data to source
        FY 2008 Actual Performance: 50                 documents in FBI files. In addition, program managers at FBI HQ verify
                                                       each investigation’s link to an organization on the CPOT list.
        FY 2009 Revised Performance: 35                Data Limitations: FBI field personnel are required to enter
                                                       accomplishment data within 30 days of the accomplishment or a change
                                                       in the status, such as those resulting from appeals. Data are compiled
                                                       less than 30 days after the end of the fiscal year, and thus may not fully
                                                       represent the accomplishments during the reporting period.

Federal Bureau of Investigation                      - 12 -
                 Management’s Discussion and Analysis


        FY 2010 Target:                    30
        FY 2010 Actual Performance: 32
* Note: The FBI tracked disruptions/ dismantlements through its National Priority Target List before the
CPOT list prioritized DOJ-wide drug efforts in FY 2003.
Discussion of FY 2010 Results: The FBI has exceeded its targets for this measure. The FBI’s leading
OCDETF initiative is “Operation Panama Express,” concentrating on maritime drug transportation. The
FBI’s effectiveness is largely attributable to partnership with the DEA, Immigration and Customs
Enforcement, the U.S. Coast Guard and the Joint Interagency Task Force-South, comprised of law
enforcement and Department of Defense counterparts.


PROGRAM: White-Collar Crime
Background/Program Objectives: Through the White-Collar Crime (WCC) Program, the FBI
investigates criminals and criminal enterprises that seek illicit gains through fraud and guile. Illegal
activities investigated include corporate, health care, securities and commodities, financial institution,
mortgage, government (defense procurement and other areas), insurance, mass marketing, and bankruptcy
fraud; environmental crimes; and money laundering.
U.S. citizens and businesses lose billions of dollars each year to criminals engaged in non-violent
fraudulent enterprises. The globalization of economic and financial systems, technological advances,
declining corporate and individual ethics, and the
sophistication of criminal organizations have
resulted in annual increases in the number of illegal             Number of Criminal Enterprises Engaging
acts characterized by deceit, concealment, or                        in White-Collar Crimes Dismantled
violations of trust. These crimes contribute to a loss          350                                     309
                                                                300                         277
of confidence in financial institutions, public                                                     250
                                                                250                     231     211
institutions, and industry.
                                                                  200               163                                   160
Performance Measure: Number of Criminal                           150           137

Enterprises Engaging in White-Collar Crimes                       100 59 49
 73
Dismantled.                                                        50

                                                                    0
        FY 2001 Actual Performance: 59                                FY01  FY03    FY05              FY07      FY09

        FY 2002 Actual Performance: 49                                               Actual      Target
        FY 2003 Actual Performance: 73                     Data Definition: Dismantlement means destroying the organiza ion’s
                                                           leadership, financial base, and supply network such that the
        FY 2004 Actual Performance: 137                    organization is incapable of operating and/or reconstitu ing itself.

        FY 2005 Actual Performance: 163                    Data Collection and Storage: The data source is the FBI's ISRAA
                                                           database that tracks accomplishments from inception to closure.
        FY 2006 Actual Performance: 231                    Data Validation and Verification: Before data are entered into the
                                                           system, they are reviewed and approved by an FBI field manager, and
        FY 2007 Actual Performance: 277                    subsequently verified through inspection. Inspections occur at least
                                                           once annually, tracing sampled data to source documents contained in
                                                           FBI files.
        FY 2008 Actual Performance: 211
                                                           Data Limitations: FBI field personnel are required to enter
        FY 2009 Revised Performance: 250                   accomplishment data within 30 days of the accomplishment or a
                                                           change in the status, such as those resulting from appeals. Data are
                                                           compiled less than 30 days after the end of the fiscal year, and thus
        FY 2010 Target:                    160             may not fully represent the accomplishments during the reporting
                                                           period.




Federal Bureau of Investigation                    - 13 -
                Management’s Discussion and Analysis


        FY 2010 Actual Performance: 309
Discussion of FY 2010 Results: Congressional enhancements, improved use of intelligence and forensic
accountant resources, and the coordinated efforts of the Financial Fraud Enforcement Task Force have
contributed to a 24 percent increase in dismantlements over the previous year. In FY 2010, 21 percent of
the dismantlements (66) were related to corporate and securities fraud, including high yield investment
and Ponzi schemes; 25 percent (76) related to financial institution fraud, including mortgage fraud; and 29
percent (90) related to health care fraud.


PROGRAM: Innocent Images National Initiative
Background/Program Objectives: Facilitating crimes against children through the use of the Internet is a
national crime problem that is growing dramatically. The Innocent Images National Initiative (IINI), a
component of the FBI's Cyber Crimes Program, is an intelligence-driven, proactive, multi-agency
investigative initiative that combats the proliferation of child pornography and/or child sexual exploitation
facilitated by online computers. The mission of the IINI is to:
    •	 Identify, investigate, and prosecute sexual predators who use the Internet and other online

       services to sexually exploit children;

    •	 Identify and rescue child victims; and
                                                                           Number of Children Depicted in Child 

    •	 Establish a law enforcement presence on the                          Pornography Identified by the FBI

       Internet as a deterrent to subjects who seek to
                                                                                                                       246
       exploit children.                                            250
                                                                                                187
Performance Measure: Number of Children Depicted in                 200

Child Pornography Identified by the FBI                             150                                     118              130
                                                                    100               73
        FY 2001 Actual Performance: Not Available                           37

                                                                     50
        FY 2002 Actual Performance: Not Available                     0

                                                                            FY06      FY07       FY08       FY09        FY10
        FY 2003 Actual Performance: Not Available
                                                                                           Actual     Target
        FY 2004 Actual Performance: Not Available             Data Definition: These data record the number of children
                                                              found in child pornography materials who have their identi ies
        FY 2005 Actual Performance: Not Available             determined as a result of FBI child pornography investigations.

        FY 2006 Actual Performance: 37                        Data Collection and Storage: Data are collected and stored in
                                                              a database at the NCMEC. Subsequent analysis of these data
                                                              is reported in communications stored in the FBI's Automated
        FY 2007 Actual Performance: 73                        Case Support (ACS) system.

        FY 2008 Actual Performance: 187                       Data Validation and Verification: Law enforcement personnel
                                                              nationwide are required to submit data on child pornography
        FY 2009 Actual Performance: 118                       materials and victims to he CVIP, managed by FBI Cyber
                                                              Division (CyD) personnel assigned to the NCMEC. Submissions
                                                              of child pornography material must include a law enforcement
        FY 2010 Target:                  130                  point-of-contact, who will be willing to testify as to the identify of
                                                               he child in any investigation. As investigations identify specific
        FY 2010 Actual Performance: 246                       children wi hin submitted materials, they are listed in electronic
                                                              communications (ECs) reported in the FBI's ACS system.
Discussion of FY 2010 Results: The FBI significantly          Data Limitations: The FBI cannot directly control the number of
surpassed its target for this measure. The FBI continues      children identified at any given time through investigative
                                                              techniques and/or any other methodology, due to the reactive
its collaboration with the National Center for Missing &      nature of this measure. The FBI always makes every effort to
Exploited Children’s (NCMEC) Child Victim                     identify and rescue victimized children. Historical data (prior to
                                                              FY 2008) for this measure had to be retrieved from a manual
Identification Program (CVIP) and CyberTipline as well        count of iden ified victims in ECs during the years reviewed.




Federal Bureau of Investigation                   - 14 -
                Management’s Discussion and Analysis


as successful FBI initiatives such as the Innocent Images International Task Force and the Endangered
Child Alert Program (ECAP).
CVIP serves as the national clearinghouse for child pornography cases and the main point of contact to
international agencies regarding victims of child pornography. CyberTipline operates a Congressionally-
mandated reporting website for child sexual exploitation, including child pornography and online
enticement.
A major contributor to IINI’s FY 2010 performance is IINI’s presence at NCMEC. Currently, IINI
details one agent and three investigative specialists to NCMEC. An actionable lead relayed to the
Jacksonville Division in late FY 2010 from a NCMEC CyberTipline Report has led to the identification
of 24 child victims.
In 2004, the FBI initiated the Innocent Images International Task Force (IIITF) to promote and develop a
coordinated international law enforcement response against Online Child Sexual Exploitation (OCSE).
The IIITF is intended to develop a cadre of international law enforcement experts to formulate and deliver
a unified global response against OCSE. Since its inception, IIITF has been instrumental to the
successful initiation and resolution of several high profile, complex OCSE investigations with a global
footprint. The expanding IIITF is comprised of 70 task force officers from 33 countries.
ECAP, an aggressive approach to identify unknown individuals involved in the sexual abuse of children
and the production of child pornography, became operational in February 2004. ECAP uses national and
international media exposure of unknown adults featured in child pornography and displays their faces on
the “Seeking Information” section of the FBI website in hopes that someone can identify them. To date,
exposure of these subjects has led to the successful identification and arrest of several previously-
unknown child pornography subjects and the identification of more than 30 child victims.


PROGRAM: Internet Fraud
Background/Program Objectives: Internet fraud is any scam that uses one or more components of the
Internet to present fraudulent solicitations to prospective victims, conduct fraudulent transactions, or
transmit the proceeds of fraud to financial institutions or others that are connected to the scheme. Identity
theft, Internet auction fraud, and unauthorized electronic funds transfers are problems that plague millions
of U.S. victims.
The FBI and the National White Collar Crime Center partnered in May 2000 to support the Internet
Crime Complaint Center (IC3). For victims of Internet crime, the IC3 provides a convenient way to alert
authorities of a suspected violation. For law enforcement and regulatory agencies, the IC3 offers a central
repository for complaints related to Internet crime, uses the information to quantify patterns, and provides
timely statistical data of current trends. In addition, the FBI uses synchronized, nationwide takedowns
(i.e., arrests, seizures, search warrants, and indictments) to target the most significant perpetrators of on­
line schemes.
Performance Measure: Number of High-Impact Internet Fraud Targets Neutralized
        FY 2001 Actual Performance: Not Available
        FY 2002 Actual Performance: Not Available
        FY 2003 Actual Performance: 5
        FY 2004 Actual Performance: 7




Federal Bureau of Investigation                   - 15 -
                 Management’s Discussion and Analysis


        FY 2005 Actual Performance: 10
        FY 2006 Actual Performance: 9
        FY 2007 Actual Performance: 11
        FY 2008 Actual Performance: 11
        FY 2009 Actual Performance: 13
                                                                         Number of High-Impact Internet Fraud 

        FY 2010 Target:                     13                                   Targets Neutralized

        FY 2010 Actual Performance: 12                             14                                               13        13
                                                                                                            11           12
                                                                   12                                11
Note: FY 2003-2006 data were recorded as the                                           10

                                                                                               9
                                                                   10

measure “Number of Top-Ten Internet Targets                         8             7
                                                                          5
Neutralized.”                                                       6
                                                                    4
Discussion of FY 2010 Results: The FBI did not                      2
reach the target for this measure in FY 2010, due to                0
                                                                         FY03         FY05          FY07          FY09
the extent of IC3 resources needed to support high
profile cases throughout the national and                                                Actual      Target
international law enforcement communities.                 Data Definition: Case data are reviewed by the IC3 staff to
                                                           determine if investiga ive targets meet certain “high impact” criteria:
Throughout FY 2010, many arrests were made in at           Total loss amount greater than $100,000; Internal nexus; White-
least two very large investigations; one of which          Collar Crime-related fraud; Money Laundering scheme;
                                                           Pharmaceutical Fraud; Phishing; Attack/Iden ity Theft; and High
involved 390 FBI-wide investigations. Due to the           volume of victims. The IC3 evaluates and tracks the progress of
390 investigations conducted throughout the field,         investigations meeting these criteria throughout the year.

the resources of several analysts were required.           Data Collection and Storage: The data source is a record system
                                                           maintained by the IC3. The list of targets is updated each year.
While this was a large focus for the IC3 this fiscal
                                                           Data Validation and Verification: Targets are determined by
year, it is anticipated that less time will be allocated   subject matter expert teams at the IC3 and approved by the Unit
to this initiative in the future given that the arrests    Chief. IC3 staff maintains the list and determines when a target
                                                           has been the subject of an action.
have already been made.
                                                           Data Limitations: There are no requirements for the IC3 to
                                                           receive feedback from FBI field offices or state and local law
                                                           enforcement regarding neutralizations that were a result of IC3
                                                           case referrals. Due to this lack of feedback, the IC3 may
                                                           underreport the number of neutralizations.




Federal Bureau of Investigation                      - 16 -
                Management’s Discussion and Analysis


ANALYSIS OF SYSTEMS, CONTROLS, AND LEGAL COMPLIANCE
The FBI is committed to achieving program results as intended by the U.S. Congress for its federally-
funded programs. FBI management affirms that protecting programs and resources from waste, fraud,
and mismanagement is an important responsibility. Complying with the Federal Managers' Financial
Integrity Act of 1982 (FMFIA) is key to ensuring the FBI meets its stewardship responsibilities. In
accordance with this law, the FBI provides ongoing evaluations and reports on the adequacy of its
financial systems and internal management controls.
Internal Controls Program
Management of the FBI is responsible for establishing and maintaining effective internal control and
financial management systems that meet the objectives of the FMFIA. The FBI assesses its internal
control over the effectiveness and efficiency of operations and compliance with applicable laws and
regulations in accordance with OMB Circular A-123, Management’s Responsibility for Internal Control,
as required by Section 2 of the FMFIA. Based on the results of this assessment, the FBI provided
reasonable assurance that its internal control over the effectiveness and efficiency of operations and
compliance with applicable laws and regulations as of June 30, 2010, was operating effectively, except
for three reportable conditions as summarized below. Corrective Action Plans were established to
institute programs and/or controls to eliminate these conditions.
FMFIA Section 2 – Reportable Conditions
The FBI designated three items under Section 2 as reportable conditions:
•	 National Security Letters (NSLs): In March 2007, the Office of the Inspector General (OIG) reported
   that the FBI’s use of NSLs grew dramatically and shifted in focus since the enactment of the Patriot
   Act and that NSLs served as an indispensable investigative tool. The OIG found issues with the
   FBI’s tracking, reporting, and guidance regarding NSL usage. A March 2008 follow-up review
   assessed the FBI’s corrective actions and indicated the FBI and Department had made significant
   progress in implementing the 2007 recommendations. Improvements included strengthening the
   controls and automated workflow governing the request, review, and approval of NSLs; field office
   monthly reconciliations of NSL usage; and improving the database used to track NSL use. The FBI's
   actions to remediate the March 2007 OIG findings were completed by June 2007 and validated prior
   to December 31, 2008. The FBI continues to dedicate resources to ensure appropriate use of NSLs
   and has lowered the deficiency from a material weakness to a reportable condition in FY 2010.
•	 Management of the Sentinel Program: The Government Accountability Office (GAO) audited the
   FBI’s delivery of the Sentinel Program during FY 2007, to evaluate the FBI’s use of effective
   acquisition practices and the basis for estimating schedule and costs. Based on the report, the FBI is
   managing the Sentinel program in accordance with many approved key system acquisition best
   practices and has established several successful processes for identifying and mitigating associated
   risks. The GAO also found the FBI was not in accordance with best practices concerning overseeing
   contractors, and the process to formulate the program’s schedule and cost estimates did not adhere to
   governmental best practices.
•	 Control over Weapons and Laptop Computers: In 2002, the OIG released a report assessing the FBI’s
   progress in addressing deficiencies regarding the control over weapons and laptop computers. A
   follow-up audit published in February 2007 determined the FBI had made progress in decreasing the
   rate of loss for weapons and laptops and, with the exception of stolen laptop computers, the rate of
   loss for each property category decreased. Guidance and policy issued since the audit remediated the




Federal Bureau of Investigation                  - 17 -
                Management’s Discussion and Analysis


    weaknesses, and the last open finding was closed by the OIG in July 2010. The FBI will discontinue
    reporting on this issue in FY 2011.
FMFIA Section 4 – Nonconformances
The FBI provided reasonable assurance that its internal control over financial management systems was
operating effectively, except for three system nonconformances as summarized below:
•	 Financial Systems Compliance: The FBI's Financial Management System (FMS) was inadequate and
   audit reports indicated there were concerns regarding its compliance with financial systems
   requirements. The FBI and the DOJ's Chief Information Officer addressed the most severe findings
   to minimize financial reporting risks until the DOJ Unified Financial Management System (UFMS) is
   implemented.
•	 Inadequate accountability over the Health Insurance Portability and Accountability Act of 1996
   (HIPAA) funding of health care fraud investigations: In a response to an April 2005 GAO report, the
   FBI concurred that it did not adequately monitor use of health care fraud investigative resources. Due
   to the limitations of the FMS, the FBI was not in a position to determine whether all transferred funds
   were spent for the purpose provided. The GAO provided four recommendations, two enhancing the
   FBI's accountability over the HIPAA transfers and two augmenting the new UFMS cost-tracking
   capabilities in the long term. Enhancements to the FBI's accountability were completed and the
   remaining recommendations will be completed with the implementation of UFMS.
•	 Management of Confidential Case Funds and Telecommunication Costs: Reviewing cases between
   2004 and 2006, a January 2008 OIG report on the FBI Management of Confidential Case Funds and
   Telecommunication Costs noted that the FBI’s FMS, “lacks the controls necessary to prevent theft
   and, as such, is not an effective financial system for FBI employees to use to account for and approve
   confidential case funds.” The OIG provided 16 recommendations to improve the FBI’s internal
   financial controls related to the tracking, payment, and processing of undercover telecommunications
   expenses and case funds. The FBI initiated actions - many of them independent of the OIG audit - to
   improve processes and provide additional oversight of confidential case funds. As of June 2008, all
   16 recommendations were closed or resolved. The FBI is in a 90-day response cycle to report on
   progress to close all resolved recommendations.
OMB Circular A-123 – Internal Control
In FY 2010, the FBI documented and assessed its significant business processes according to the
requirements of DOJ’s Implementation Plan for compliance with OMB Circular A-123, Management’s
Responsibility for Internal Control, revised December 21, 2004. The revised Circular A-123 re-examined
internal control requirements for federal agencies in light of the requirements for publicly-traded
companies implemented by the Sarbanes-Oxley Act of 2002. The full Circular A-123, Appendix A:
Internal Control over Financial Reporting assessment covered all processes deemed to be significant to
the FBI and the Department of Justice. These processes were: Property Management, Treasury,
Procurement and Payable, Financial Reporting, Human Resources, Revenue/Receivables Management,
Budget/Funds Management, Information Technology, and Seized Monetary Assets. The results of the
assessment indicated no material weaknesses in the FBI’s internal control over financial reporting as of
June 30, 2010.
Federal Financial Management Improvement Act of 1996
The Federal Financial Management Improvement Act of 1996 (FFMIA) was designed to improve federal
financial and program managers’ accountability, provide better information for decision-making, and
improve the efficiency and effectiveness of federal programs. FFMIA requires agencies to have financial



Federal Bureau of Investigation                  - 18 -
                Management’s Discussion and Analysis


management systems that substantially comply with federal financial management systems requirements,
applicable federal accounting standards, and the U.S. Standard General Ledger (USSGL) at the
transaction level. Furthermore, the Act requires independent auditors to report on agency compliance
with the three requirements in the financial statement audit report. The Federal Information Security
Management Act (FISMA) states that to be substantially compliant with FFMIA, there are to be no
significant deficiencies in information security policies, procedures, or practices.
FFMIA Compliance Determination
During FY 2010, the FBI performed a self-assessment, and documented several areas in which its key
financial management systems, principally FMS has a moderate risk of not providing reliable and
consistent information for decision-making. As a result, the FBI reported several instances in which its
key financial management systems do not comply with certain provisions of FFMIA.
•	 Federal Financial Management System Requirements: The FBI relies upon several systems to provide
   financial information that is necessary to support their financial management needs. These systems,
   other than the FMS, used by the FBI during FY 2010, include the Property Management Application,
   Vehicle Management Application, the Fixed Assets module of FMS, and the Reimbursable
   Agreement Management System. The FBI’s core financial systems are not integrated through a
   common database or interfaced electronically to meet data and processing requirements.
•	 Transactions Entered at the Standard General Ledger Level: The FBI’s financial management systems
   are not currently configured to use the USSGL at the transaction level. Specifically, certain
   transactions are processed outside of the FBI’s core financial accounting system, but are not recorded
   at the transaction level using the USSGL. These transactions must be modified when recorded into
   the core financial accounting system through a manual or automated batch transaction process.
Legal Compliance
Except as discussed above, the FBI is not aware of any additional instances of material noncompliance
with laws or regulations identified in OMB guidance, or with any laws or regulations that have a direct
and material effect on the FBI’s financial statements.
POSSIBLE FUTURE EFFECTS OF EXISTING EVENTS AND CONDITIONS
Factors and Future Trends Affecting Federal Bureau of Investigation Programs’ Goal Achievement
The Changing Threat
The U.S. continues to face significant challenges to national security from increasingly sophisticated 

internal and external threats. In addition to well-funded and established terrorist organizations such as al­
Qa’ida, the U.S. faces Weapons of Mass Destruction, foreign intelligence, cyber, and domestic concerns, 

including substantial increases in areas such as mortgage and securities fraud.

The FBI must protect the U.S. and its citizens from all new and on-going foreign and domestic threats. 

As it executes its mission, the FBI continues to make major investments in personnel, technology, and 

materiel needed to maintain its security and law enforcement capabilities, and to expand these capabilities 

to anticipate new and evolving threats to national and personal security.

Revision of the National Intelligence Program Methodology
The FBI plays a critical role in the success of the nation’s intelligence enterprise. The Intelligence
Reform and Terrorism Prevention Act (IRTPA) of 2004 established the Office of the Director of National
Intelligence (ODNI) and redesignated the National Foreign Intelligence Program as the National
Intelligence Program (NIP). Based on IRTPA an agreement was reached between the ODNI and the DOJ
to identify FBI-tagged NIP resources. The identification methodology proved unduly complicated and


Federal Bureau of Investigation                   - 19 -
                 Management’s Discussion and Analysis


made it a challenge to produce NIP data with the timeliness, accuracy, and transparency. In May 2009, a
new agreement reflecting the joint authority of the DNI and Attorney General was signed, establishing a
revised methodology in FY 2010 that more accurately reflects the FBI’s national security efforts.
Criminal Justice Information Services (CJIS) User Fee Collections for Fingerprint Services
On October 1, 2007, the FBI implemented an interim user fee schedule via a CJIS Information Letter to
customer agencies. In June 2008, the FBI's Notice for Proposed Rulemaking was published. The Final
Rule became effective May 13, 2010, establishing the fee structure for noncriminal justice fingerprint
services. The FBI's CJIS and Finance Divisions continue to improve on the cost-evaluation procedures
established during a FY 2008 user fee study to ensure compliance with OMB Circular A-25, User
Charges.
In FY 2009 the FBI transitioned all billing and collection functions for the fingerprint services program
(one of the FBI’s largest revenue sources) to CJIS. This change was primarily to allow for more efficient
revenue recording and customer accounts reconciliation. In FY 2010, CJIS revenue increased 5.5 percent
and accounts receivable balances decreased 53 percent as a reflection of continued improvements.
Records Management Division (RMD) User Fee Collections for National Name Check Program
The FBI’s RMD is currently updating the fee structure of the National Name Check Program (NNCP).
Consistent with guidance in OMB Circular A-25, the FBI evaluates user fee structures every two years or
yearly if needed based on major program changes. The NNCP eliminated a substantial backlog and
achieved steady state for all customers in FY 2009. Forecasted changes in workload from the top three
customers are expected to increase costs to maintain the steady state, and require increases in user fees.
In addition, the NNCP will incur significant costs as it continues to implement improvements in
information technology to improve the efficiency and effectiveness of the NNCP.
Unified Financial Management System (UFMS)
Since 2002, the DOJ has led the effort to implement a department-wide financial system that will enhance
current and future financial management and procurement operations, and standardize many business
practices. The chosen solution is the UFMS, an integrated commercial-off-the-shelf application that will
replace the FBI’s Financial Management System. Initial planning for the FBI implementation was
completed during FY 2008. During the second quarter of FY 2009, the FBI implemented the non-
financial contract writing functionality of the UFMS acquisitions module.
To accommodate the DOJ schedule to implement the UFMS in the DEA and in the Bureau of Alcohol,
Tobacco, Firearms, and Explosives during FYs 2009 and 2010, the FBI UFMS implementation was
placed on hold for two years, to begin during November 2010. The FBI plans to introduce the UFMS in
multiple phases - a live pilot at a major FBI organization during FY 2012; live pilots at three Field Offices
and a Legat approximately six months later; and the remaining FBI organizations, Field Offices, and
Legats during FY 2013.
Financial Information System (FIS)
The FIS project represents a series of bridge efforts and five best-practice initiatives that has helped the
FBI move toward the implementation of UFMS. The initiatives include: archiving historic and current
FMS data; restructuring the chart of accounts; creating a relational database structure; deploying an
integrated financial reporting tool; and deploying a modern graphical user interface (GUI).
The archive initiative was completed in June 2010, removing a significant number of records from the
FMS mainframe and reducing the risk to UFMS implementation. A comprehensive set of financial
reports was developed in the new strategic reporting tool and deployed to all field office divisions in July


Federal Bureau of Investigation                    - 20 -
                Management’s Discussion and Analysis


2010 and to headquarters divisions in October 2010. This tool provides FBI management with a standard
set of financial reports compatible with UFMS. The GUI was fully deployed, in stages, from September
2009 throughout June 2010. As of October 2010, the restructured chart of accounts was deployed for all
non-personnel funds, providing the FBI with funds control and financial tracking against program and
subprogram levels. The chart of accounts structure prepares the FBI for migration to the budget and
expense structure of UFMS.
Strategy Management System (SMS)
The FBI’s Strategy Management System (SMS) is based upon a widely utilized strategy system known as
the Balanced Scorecard. In 2006, the FBI began using the Balanced Scorecard methodology to manage
strategy execution. SMS guides the FBI enterprise’s efforts to meet 25 strategic objectives.
SMS is used to help drive budget, inspection, and accountability. In 2008, the FBI began to more closely
align its current spending and budget projections with its strategy by incorporating SMS in the FBI’s
spend plan process. Spend plan review meetings examine division resource allotments to ensure
personnel and nonpersonnel resources align with strategic priorities. This enhances decision-making
during budget formulation and execution, identifying areas of emphasis for resources that align with the
SMS. SMS is also linked to inspections and employee performance evaluations.


LIMITATIONS OF THE FINANCIAL STATEMENTS
•	 The financial statements have been prepared to report the financial position and results of operations
   of the FBI, pursuant to the requirements of 31 U.S.C. 3515(b).
•	 While the statements have been prepared from the books and records of the FBI in accordance with
   U.S. generally accepted accounting principles for federal entities and the formats prescribed by OMB,
   the statements are in addition to the financial reports used to monitor and control budgetary resources
   which are prepared from the same books and records.
•	 The statements should be read with the realization that they are for a component of the U.S.
   Government, a sovereign entity.




Federal Bureau of Investigation                  - 21 -
This page intentionally left blank.





           - 22 -
U.S. DEPARTMENT OF JUSTICE


FEDERAL BUREAU OF INVESTIGATION



     INDEPENDENT AUDITORS’ REPORTS




                 - 23 -
This page intentionally left blank.





           - 24 -
                                  KPMG LLP
                                  2001 M Street, NW
                                  Washington, DC 20036-3389




                        Independent Auditors’ Report on Financial Statements


Inspector General
U.S. Department of Justice


Director
Federal Bureau of Investigation
U.S. Department of Justice


We have audited the accompanying consolidated balance sheets of the U.S. Department of Justice Federal
Bureau of Investigation (FBI) as of September 30, 2010 and 2009, and the related consolidated statements
of net cost and changes in net position, and the combined statements of budgetary resources (hereinafter
referred to as “consolidated financial statements”) for the years then ended. These consolidated financial
statements are the responsibility of the FBI’s management. Our responsibility is to express an opinion on
these consolidated financial statements based on our audits.

We conducted our audits in accordance with auditing standards generally accepted in the United States of
America; the standards applicable to financial audits contained in Government Auditing Standards, issued
by the Comptroller General of the United States; and Office of Management and Budget (OMB) Bulletin
No. 07-04, Audit Requirements for Federal Financial Statements, as amended. Those standards and OMB
Bulletin No. 07-04 require that we plan and perform the audits to obtain reasonable assurance about
whether the consolidated financial statements are free of material misstatement. An audit includes
consideration of internal control over financial reporting as a basis for designing audit procedures that are
appropriate in the circumstances, but not for the purpose of expressing an opinion on the effectiveness of
the FBI’s internal control over financial reporting. Accordingly, we express no such opinion. An audit
also includes examining, on a test basis, evidence supporting the amounts and disclosures in the
consolidated financial statements, assessing the accounting principles used and significant estimates made
by management, as well as evaluating the overall consolidated financial statement presentation. We
believe that our audits provide a reasonable basis for our opinion.

In our opinion, the consolidated financial statements referred to above present fairly, in all material
respects, the financial position of the U.S. Department of Justice Federal Bureau of Investigation as of
September 30, 2010 and 2009, and its net costs, changes in net position, and budgetary resources for the
years then ended in conformity with U.S. generally accepted accounting principles.

The information in the Management’s Discussion and Analysis and Required Supplementary Information
sections is not a required part of the consolidated financial statements, but is supplementary information
required by U.S. generally accepted accounting principles. We have applied certain limited procedures,
which consisted principally of inquiries of management regarding the methods of measurement and
presentation of this information. However, we did not audit this information and, accordingly, we express
no opinion on it.


                                                            - 25 -
                                   KPMG LLP is a Delaware limited liability partnership,
                                   the U.S. member firm of KPMG International Cooperative
                                   (“KPMG International”), a Swiss entity.
Independent Auditors’ Report on Financial Statements
Page 2




In accordance with Government Auditing Standards, we have also issued our reports dated November 3,
2010, on our consideration of the FBI’s internal control over financial reporting and our tests of its
compliance with certain provisions of laws, regulations, and contracts, and other matters. The purpose of
those reports is to describe the scope of our testing of internal control over financial reporting and
compliance and the results of that testing, and not to provide an opinion on the internal control over
financial reporting or on compliance. Those reports are an integral part of an audit performed in
accordance with Government Auditing Standards and should be read in conjunction with this report in
assessing the results of our audits.




November 3, 2010




                                             - 26 -
                                  KPMG LLP
                                  2001 M Street, NW
                                  Washington, DC 20036-3389




             Independent Auditors’ Report on Internal Control over Financial Reporting


Inspector General
U.S. Department of Justice


Director
Federal Bureau of Investigation
U.S. Department of Justice


We have audited the consolidated balance sheets of the U.S. Department of Justice Federal Bureau of
Investigation (FBI) as of September 30, 2010 and 2009, and the related consolidated statements of net cost
and changes in net position, and the combined statements of budgetary resources (hereinafter referred to as
“consolidated financial statements”) for the years then ended, and have issued our report thereon dated
November 3, 2010.

We conducted our audits in accordance with auditing standards generally accepted in the United States of
America; the standards applicable to financial audits contained in Government Auditing Standards, issued
by the Comptroller General of the United States; and Office of Management and Budget (OMB) Bulletin
No. 07-04, Audit Requirements for Federal Financial Statements, as amended. Those standards and OMB
Bulletin No. 07-04 require that we plan and perform the audits to obtain reasonable assurance about
whether the consolidated financial statements are free of material misstatement.

The management of the FBI is responsible for establishing and maintaining effective internal control. In
planning and performing our fiscal year 2010 audit, we considered the FBI’s internal control over financial
reporting by obtaining an understanding of the FBI’s internal control, determining whether internal controls
had been placed in operation, assessing control risk, and performing tests of controls as a basis for
designing our auditing procedures for the purpose of expressing our opinion on the consolidated financial
statements, but not for the purpose of expressing an opinion on the effectiveness of the FBI’s internal
control over financial reporting. Accordingly, we do not express an opinion on the effectiveness of the
FBI’s internal control over financial reporting. We did not test all internal controls relevant to operating
objectives as broadly defined by the Federal Managers’ Financial Integrity Act of 1982.

A deficiency in internal control exists when the design or operation of a control does not allow
management or employees, in the normal course of performing their assigned functions, to prevent, or
detect and correct misstatements on a timely basis. A material weakness is a deficiency, or a combination
of deficiencies, in internal control such that there is a reasonable possibility that a material misstatement of
the entity’s financial statements will not be prevented, or detected and corrected on a timely basis.

Our consideration of internal control over financial reporting was for the limited purpose described in the
third paragraph of this report and was not designed to identify all deficiencies in internal control over
financial reporting that might be deficiencies, significant deficiencies, or material weaknesses. In our fiscal
year 2010 audit, we did not identify any deficiencies in internal control over financial reporting that we

                                                            - 27 -
                                   KPMG LLP is a Delaware limited liability partnership,
                                   the U.S. member firm of KPMG International Cooperative
                                   (“KPMG International”), a Swiss entity.
Independent Auditors’ Report on Internal Control over Financial Reporting
Page 2




consider to be material weaknesses, as defined above. However, we identified certain deficiencies in
internal control over financial reporting described in the Exhibit that we consider to be a significant
deficiency in internal control over financial reporting. A significant deficiency is a deficiency, or a
combination of deficiencies, in internal control that is less severe than a material weakness, yet important
enough to merit attention by those charged with governance.

The FBI’s response to the finding identified in our audit is presented in the Exhibit. We did not audit the
FBI’s response and, accordingly, we express no opinion on it.

This report is intended solely for the information and use of the FBI’s management, the U.S. Department of
Justice Office of the Inspector General, OMB, the U.S. Government Accountability Office, and the U.S.
Congress and is not intended to be and should not be used by anyone other than these specified parties.




November 3, 2010




                                              - 28 -
Independent Auditors’ Report on Internal Control over Financial Reporting
Page 3

                                                                                                  EXHIBIT



                                     SIGNIFICANT DEFICIENCY

This section contains our discussion of the significant deficiency we identified in internal control over
financial reporting.

WEAKNESSES EXIST IN INFORMATION SYSTEMS CONTROLS

For a significant portion of fiscal year 2010, the FBI did not adequately monitor its certification and
accreditation process and its security assessments to ensure that all financial-related systems properly
adhered to formal and established security requirements.

The information security controls prescribed by the National Institute of Standards and Technology (NIST)
Special Publication 800-53, Recommended Security Controls for Federal Information Systems and
Organizations, the Department of Justice (DOJ) Information Technology Security Standard, and the FBI
Certification and Accreditation Handbook were not consistently applied.

The deficiency existed because the FBI did not consistently maintain and enforce information technology
security policies in accordance with current NIST, DOJ, and FBI policies and procedures during a
significant portion of fiscal year 2010.

The FBI’s financial-related systems were at a greater risk of compromise.

We verified that towards the end of the fiscal year, the FBI initiated corrective actions to address the
identified deficiency. However, we were unable to verify that all the corrective actions were fully
implemented and effective prior to the end of the fiscal year.

We recommend the FBI:

    1.	 Ensure that the recent updates to the certification, accreditation, and security assessment processes
        are fully implemented and effectively address the identified deficiency.


Management Response:

The FBI concurs with the recommendation. The FBI’s Information Assurance Section (IAS) has taken
steps to make certain that beginning in FY 2011 there are processes in place for ensuring that all systems
are operating with an approved security accreditation. Specifically, the IAS is in the process of
modernizing its Certification and Accreditation program to align with a continuous monitoring model to
prevent systems from operating without an approved Authority to Operate (ATO). This includes
enhancements in the vulnerability remediation program, as well as the addition of an internal Federal
Information Security Management Act (FISMA) Compliance team. These controls will ensure the FBI is
consistently maintaining and enforcing information technology security policies in accordance with current
NIST, DOJ, and FBI policies and procedures.




                                               - 29 -
This page intentionally left blank.





           - 30 -
                                  KPMG LLP
                                  2001 M Street, NW
                                  Washington, DC 20036-3389




                  Independent Auditors’ Report on Compliance and Other Matters


Inspector General
U.S. Department of Justice


Director
Federal Bureau of Investigation
U.S. Department of Justice


We have audited the consolidated balance sheets of the U.S. Department of Justice Federal Bureau of
Investigation (FBI) as of September 30, 2010 and 2009, and the related consolidated statements of net cost
and changes in net position, and the combined statements of budgetary resources (hereinafter referred to as
“consolidated financial statements”) for the years then ended, and have issued our report thereon dated
November 3, 2010.

We conducted our audits in accordance with auditing standards generally accepted in the United States of
America; the standards applicable to financial audits contained in Government Auditing Standards, issued
by the Comptroller General of the United States; and Office of Management and Budget (OMB) Bulletin
No. 07-04, Audit Requirements for Federal Financial Statements, as amended. Those standards and OMB
Bulletin No. 07-04 require that we plan and perform the audit to obtain reasonable assurance about whether
the consolidated financial statements are free of material misstatement.

The management of the FBI is responsible for complying with laws, regulations, and contracts applicable
to the FBI. As part of obtaining reasonable assurance about whether the FBI’s fiscal year 2010
consolidated financial statements are free of material misstatement, we performed tests of the FBI’s
compliance with certain provisions of laws, regulations, and contracts, noncompliance with which could
have a direct and material effect on the determination of the consolidated financial statement amounts, and
certain provisions of other laws and regulations specified in OMB Bulletin No. 07-04, including the
provisions referred to in Section 803(a) of the Federal Financial Management Improvement Act of 1996
(FFMIA). We limited our tests of compliance to the provisions described in the preceding sentence, and
we did not test compliance with all laws, regulations, and contracts applicable to the FBI. However,
providing an opinion on compliance with those provisions was not an objective of our audit, and
accordingly, we do not express such an opinion.

The results of our tests of compliance described in the preceding paragraph, exclusive of those referred to
in FFMIA, disclosed no instances of noncompliance or other matters that are required to be reported herein
under Government Auditing Standards or OMB Bulletin No. 07-04.

The results of our tests of FFMIA disclosed instances, described in the Exhibit, where the FBI’s financial
management systems did not substantially comply with Federal financial management system requirements
because of the lack of a unified, integrated financial management system.



                                                            - 31 -
                                   KPMG LLP is a Delaware limited liability partnership,
                                   the U.S. member firm of KPMG International Cooperative
                                   (“KPMG International”), a Swiss entity.
Independent Auditors’ Report on Compliance and Other Matters
Page 2




The FBI’s financial management systems also do not permit application of the U.S. Government Standard
General Ledger at the transaction level. Specifically, certain transactions are processed outside of the
FBI’s core financial accounting system, but are not recorded at the transaction level using the U.S.
Government Standard General Ledger. These transactions must be modified when recorded into the core
financial accounting system through a manual or automated batch transaction process.

The results of our tests of FFMIA disclosed no instances in which the FBI’s financial management systems
did not substantially comply with applicable Federal accounting standards.

The FBI’s response to the instances of noncompliance identified in our audit is presented in the Exhibit.
We did not audit the FBI’s response and, accordingly, we express no opinion on it.

This report is intended solely for the information and use of the FBI’s management, the U.S. Department of
Justice Office of the Inspector General, OMB, the U.S. Government Accountability Office, and the U.S.
Congress and is not intended to be and should not be used by anyone other than these specified parties.




November 3, 2010




                                             - 32 -
Independent Auditors’ Report on Compliance and Other Matters
Page 3

                                                                                                EXHIBIT



                                INSTANCES OF NONCOMPLIANCE

This section contains our discussion of the instances of noncompliance with laws, regulations, and
contracts that we noted during our fiscal year 2010 audit.

Federal Financial Management Improvement Act of 1996

We noted that the FBI’s key financial application, the Financial Management System (FMS), and other
financial management systems do not substantially comply with some categories of FFMIA requirements
listed in OMB Circular No. A-127, Financial Management Systems, dated January 9, 2009. Specifically,
we noted deficiencies in the following categories:

•	 Federal Financial Management System Requirements: Many of the FBI’s financial management
   systems pre-date the existing applicable functional requirements for the design, development,
   operation, and maintenance of financial management systems. As a result, these financial management
   systems do not comply with all functional requirements included in OMB circulars and bulletins, and
   the Treasury Financial Manual.
    The FBI relies upon several systems to provide financial information that is necessary to support the
    FBI’s financial management needs. These systems, other than the FMS, used by the FBI during fiscal
    year 2010, include the Property Management Application (PMA), the Fixed Assets System (FAS), and
    the Reimbursable Agreement Management System. The FBI’s financial management systems are not
    considered unified because the FMS and the other systems are not planned for together, are not
    managed together, do not operate in an integrated fashion, and are not linked together electronically in
    an efficient and effective manner to provide the agency-wide financial system support necessary to
    carry out the agency's mission and support the agency's financial management needs. For example,
    property acquisitions must be recorded manually into both the FMS and PMA, and then depreciation
    information must be calculated in the FAS and recorded into the FMS for financial statement and
    internal reporting purposes.
    Further, certain modules within the FMS and other systems, such as the Vehicle Management
    Application and the PMA, do not have historical reporting capabilities to meet the data and processing
    requirements of the FBI.
•	 Application of the U.S. Government Standard General Ledger at the Transaction Level: Certain
   transactions are processed outside of the FBI’s core financial accounting system, but are not recorded
   at the transaction level using the United States Government Standard General Ledger. These
   transactions must be modified when recorded into the core financial accounting system through a
   manual or automated batch transaction process.
Due to the issues noted above, the FBI’s financial statements have the potential to be misstated. As a
result, the personnel involved in preparing the financial statements and other financial reports have been
required to maintain numerous manual and automated processes in order to compensate for the controls and
reporting abilities that are lacking in the FBI’s financial management systems.




                                              - 33 -
Independent Auditors’ Report on Compliance and Other Matters
Page 4




We make no recommendation corresponding with the FFMIA noncompliance because the FBI has stated
that it will be migrating to the Department of Justice Unified Financial Management System, and costs to
correct the FFMIA deficiencies in the current accounting system are not justified.

Management Response:

The FBI concurs with the finding. The FBI has made an absolute commitment to the implementation of the
Department of Justice (DOJ) Unified Financial Management System (UFMS). Since 2002, the Department
of Justice (DOJ) has been leading the effort to implement a department-wide financial system that will
enhance current and future financial management and procurement operations, and standardize many
business practices. The DOJ is addressing these needs through implementation of the UFMS, an integrated
commercial-off-the-shelf application that will replace the FBI’s current Financial Management System
(FMS) and legacy financial management and procurement systems throughout the Department.

Initial planning for the FBI implementation of the UFMS was completed by the DOJ UFMS program
management office, in conjunction with its Implementation & Integration (I&I) contractor during FY 2008.
A task order to begin the FBI implementation phase has been issued to DOJ’s I&I contractor in October
2010, with implementation tasks and activities to begin during November 2010. The FBI plans to
implement the UFMS in multiple phases--a live "pilot" at a major FBI organization during FY 2012; live
“pilots” at three Field Offices and a Legat approximately six months later; the remainder of FBI
organizations, Field Offices, and Legats during FY 2013.

In addition to the UFMS implementation, the FBI has embarked on several projects to improve on financial
reporting using the current FMS. These projects represent a series of bridge efforts and five best-practice
initiatives that has helped the FBI move toward the implementation of UFMS. The best-practice initiatives
include: Archiving historic and current FMS data; Restructuring the Chart of Accounts; Creating a
relational database structure; Deploying an integrated financial reporting tool; and Deploying a modern
graphical user interface (GUI).

The Archive initiative was completed in June 2010, removing a significant number of records from the
FMS mainframe and reducing the risk to UFMS implementation. A comprehensive set of financial reports
was developed in the new strategic reporting tool and deployed to all field office divisions in July 2010 and
to headquarters divisions in October 2010. This tool provides FBI management with a standard set of
reports to rely on for their financial management needs and will be compatible with UFMS. The remaining
modules of the graphical user interface were deployed in stages from September 2009 throughout
June 2010. The GUI is now in use in all field offices and headquarters divisions. As of October 1, 2010,
the restructured chart of accounts was deployed for all non-personnel funds providing the FBI with funds
control and financial tracking against program and subprogram levels. The chart of accounts restructure
provides an IT capability that supports the financial management activities of headquarters and field office
divisions, satisfies the FBI’s financial reporting obligation to the Department of Justice, and prepares the
FBI for migration to the budget and expense structure of UFMS.

The Finance Division is also leading a Supply Chain Management (SCM) Program to improve the FBI’s
business processes by implementing new technologies to streamline purchasing and payment activities and
improve vendor management, enhance management of assets and inventory processes, and improve
management of its growing fleet of vehicles. The SCM Program will be accomplished in three phases.

                                               - 34 -
Independent Auditors’ Report on Compliance and Other Matters
Page 5




The first phase will consolidate and replace the Property and Vehicle Management Applications (PMA and
VMA) as well as the Fixed Asset (FA) Module. The goal for Phase I completion is the third quarter of
FY 2011. The implementation of an asset management system during this phase will provide improved
linkages to the existing procurement processes in FMS, improve the accountability, tracking and accuracy
of assets recorded, and allow for better performance and metrics for financial statements and other
reporting.




                                            - 35 -
This page intentionally left blank.





           - 36 -
U.S. DEPARTMENT OF JUSTICE


FEDERAL BUREAU OF INVESTIGATION



     PRINCIPAL FINANCIAL STATEMENTS

           AND RELATED NOTES





                  - 37 -
This page intentionally left blank.





           - 38 -
                                                   U.S. Department of Justice

                                                Federal Bureau of Investigation

                                                  Consolidated Balance Sheets

                                               As of September 30, 2010 and 2009


Dollars in Thousands                                                                       2010              2009

ASSETS (Note 2)
   Intragovernmental
       Fund Balance with U.S. Treasury (Note 3)                              $       3,694,239      $   3,292,066
       Accounts Receivable (Note 5)                                                    158,737            137,156
       Other Assets (Note 9)                                                            30,638             57,512
   Total Intragovernmental                                                           3,883,614          3,486,734

   Cash and Monetary Assets (Note 4)                                                    51,017             52,058
   Accounts Receivable, Net (Note 5)                                                    30,384             31,159
   Inventory and Related Property, Net (Note 6)                                          7,927              8,804
   General Property, Plant and Equipment, Net (Note 8)                               2,197,590          1,814,851
   Advances and Prepayments                                                             46,698             51,986
Total Assets                                                                 $       6,217,230      $   5,445,592

LIABILITIES (Note 10)
   Intragovernmental
       Accounts Payable                                                      $         162,573      $    166,513
       Accrued Federal Employees' Compensation Act Liabilities                          31,231            32,785
       Other Liabilities (Note 14)                                                     114,588            87,513
   Total Intragovernmental                                                             308,392           286,811

   Accounts Payable                                                                    488,886            356,100
   Actuarial Federal Employees' Compensation Act Liabilities                           176,353            176,818
   Accrued Payroll and Benefits                                                        187,572            161,029
   Accrued Annual and Compensatory Leave Liabilities                                   265,775            244,863
   Environmental and Disposal Liabilities (Note 11)                                      9,755                  -
   Seized Cash and Monetary Instruments (Note 13)                                       42,120             37,390
   Contingent Liabilities (Note 15)                                                     66,762            128,978
   Other Liabilities (Note 14)                                                           3,297              5,362
Total Liabilities                                                            $       1,548,912      $   1,397,351

NET POSITION
   Unexpended Appropriations                                                 $       2,255,206      $   2,114,589
   Cumulative Results of Operations                                                  2,413,112          1,933,652
Total Net Position                                                           $       4,668,318      $   4,048,241

Total Liabilities and Net Position                                           $       6,217,230      $   5,445,592




Federal Bureau of Investigation                        - 39 -
                       The accompanying notes are an integral part of these financial statements.
                                                                       U.S. Department of Justice

                                                                     Federal Bureau of Investigation

                                                                  Consolidated Statements of Net Cost

                                                        For the Fiscal Years Ended September 30, 2010 and 2009


Dollars in Thousands

                                               Gross Costs                                             Less: Earned Revenues                     Net Cost of
                           Intra­               With the                                      Intra-           With the                          Operations
             FY         governmental             Public                 Total              governmental         Public           Total            (Note 16)

Goal 1      2010       $     1,358,631     $        3,826,696     $      5,185,327     $         495,393    $       12,603   $     507,996   $       4,677,331
            2009       $     1,143,681     $        3,076,513     $      4,220,194     $         549,297    $       11,306   $     560,603   $       3,659,591

Goal 2      2010             1,007,910              2,838,860            3,846,770               631,012           136,198         767,210           3,079,560
            2009             1,035,139              2,784,534            3,819,673               591,269           127,420         718,689           3,100,984

Total       2010       $     2,366,541     $        6,665,556     $      9,032,097     $        1,126,405   $      148,801   $   1,275,206   $       7,756,891
            2009       $     2,178,820     $        5,861,047     $      8,039,867     $        1,140,566   $      138,726   $   1,279,292   $       6,760,575



Goal 1    Prevent Terrorism and Promote the Nation's Security
Goal 2    Prevent Crime, Enforce Federal Laws, and Represent the Rights and Interests of the American People




Federal Bureau of Investigation                                                      - 40 -
                                               The accompanying notes are an integral part of these financial statements.
                                             U.S. Department of Justice

                                           Federal Bureau of Investigation

                                Consolidated Statements of Changes in Net Position

                              For the Fiscal Years Ended September 30, 2010 and 2009


 Dollars in Thousands                                                                 2010                  2009




 Unexpended Appropriations
  Beginning Balances                                                  $       2,114,589           $   1,884,207

   Budgetary Financing Sources
    Appropriations Received                                                   7,922,537                7,336,191
    Appropriations Transferred-In/Out                                            90,116                   (8,978)
    Other Adjustments                                                           (50,000)                       -
    Appropriations Used                                                      (7,822,036)              (7,096,831)

   Total Budgetary Financing Sources                                             140,617                230,382

   Unexpended Appropriations                                          $       2,255,206           $   2,114,589

 Cumulative Results of Operations
  Beginning Balances                                                  $       1,933,652           $   1,328,549
  Adjustments (Note 19)
    Changes in Accounting Principle                                              (9,755)                      -
  Beginning Balances, as Adjusted                                             1,923,897               1,328,549

   Budgetary Financing Sources
    Appropriations Used                                                       7,822,036               7,096,831

   Other Financing Sources
    Transfers-In/Out Without Reimbursement                                        69,206                 61,342
    Imputed Financing from Costs Absorbed
      by Others (Note 17)                                                        354,864                207,505

   Total Financing Sources                                                    8,246,106               7,365,678

   Net Cost of Operations                                                    (7,756,891)              (6,760,575)

   Net Change                                                                    489,215                605,103

   Cumulative Results of Operations                                   $       2,413,112           $   1,933,652

 Net Position                                                         $       4,668,318           $   4,048,241



Federal Bureau of Investigation                      - 41 -
                     The accompanying notes are an integral part of these financial statements.
                                                    U.S. Department of Justice

                                                  Federal Bureau of Investigation

                                          Combined Statements of Budgetary Resources

                                     For the Fiscal Years Ended September 30, 2010 and 2009


Dollars in Thousands                                                                                    2010            2009

Budgetary Resources

   Unobligated Balance, Brought Forward, October 1                                      $      1,060,034       $   1,076,486
   Recoveries of Prior Year Unpaid Obligations                                                   166,563            270,506
   Budget Authority
      Appropriations Received                                                                  7,922,537           7,336,191
      Spending Authority from Offsetting Collections
           Earned
             Collected                                                                         1,338,006           1,442,098
             Change in Receivables from Federal Sources                                            1,699             (86,453)
           Change in Unfilled Customer Orders
             Advance Received                                                                     17,463             (26,471)
             Without Advance from Federal Sources                                               (106,807)           (121,340)
   Subtotal Budget Authority                                                                   9,172,898           8,544,025
   Nonexpenditure Transfers, Net, Actual                                                          90,116              (8,978)

   Permanently not Available                                                                     (50,000)                  -
Total Budgetary Resources (Note 18)                                                     $     10,439,611       $   9,882,039

Status of Budgetary Resources

   Obligations Incurred
      Direct                                                                            $      8,278,414       $   7,672,318
      Reimbursable                                                                             1,214,320           1,149,687
           Total Obligations Incurred (Note 18)                                                9,492,734           8,822,005
   Unobligated Balance - Available
      Apportioned                                                                                547,896            737,212
           Total Unobligated Balance - Available                                                 547,896            737,212
   Unobligated Balance not Available                                                             398,981            322,822
Total Status of Budgetary Resources                                                     $     10,439,611       $   9,882,039

Change in Obligated Balance
   Obligated Balance, Net - Brought Forward, October 1
      Unpaid Obligations                                                                $      2,810,122       $   2,262,951
      Less: Uncollected Customer Payments from Federal Sources                                   584,369             792,162
           Total Unpaid Obligated Balance, Net - Brought Forward, October 1                    2,225,753           1,470,789
   Obligations Incurred, Net                                                                   9,492,734           8,822,005
   Less: Gross Outlays                                                                         8,914,482           8,004,328
   Less: Recoveries of Prior Year Unpaid Obligations, Actual                                     166,563             270,506
   Change in Uncollected Customer Payments from Federal Sources                                  105,108             207,793
   Obligated Balance, Net - End of Period
      Unpaid Obligations                                                                       3,221,811           2,810,122
      Less: Uncollected Customer Payments from Federal Sources                                   479,261             584,369
          Total Unpaid Obligated Balance, Net - End of Period                           $      2,742,550       $   2,225,753

Net Outlays
   Gross Outlays                                                                        $      8,914,482       $   8,004,328
   Less: Offsetting Collections                                                                1,355,469           1,415,627
   Less: Distributed Offsetting Receipts (Note 18)                                                   253               1,668
Total Net Outlays (Note 18)                                                             $      7,558,760       $   6,587,033




Federal Bureau of Investigation                            - 42 -
                           The accompanying notes are an integral part of these financial statements.
               Notes to the Financial Statements


                                U.S. DEPARTMENT OF JUSTICE

                             FEDERAL BUREAU OF INVESTIGATION

                            NOTES TO THE FINANCIAL STATEMENTS

                          (DOLLARS IN THOUSANDS, EXCEPT AS NOTED)


1.     Summary of Significant Accounting Policies

       A. Reporting Entity
       The Federal Bureau of Investigation (“FBI” or “Bureau”), established in 1908, is an integral part
       of the Department of Justice (DOJ). The mission of the FBI is to protect and defend the United
       States (U.S.) against terrorist and foreign intelligence threats, to uphold and enforce the criminal
       laws of the U.S., and to provide leadership and criminal justice services to federal, state, local,
       and international agencies and partners. The Bureau also provides assistance to other federal,
       state, and local law enforcement agencies and the public at large. Assistance includes forensic
       services, training law enforcement officials, background investigations, name checks, fingerprint
       analyses, and cooperative criminal investigations.
       The accompanying financial statements of the FBI include the following funds under the
       administrative and/or operational control of the FBI: appropriated single, multi-year, and no-year
       Salaries and Expense (S&E) Funds; appropriated no-year Construction (CNST) Funds; and no-
       year Violent Crime Reduction Program (VCRP) Trust Funds. These funds include new
       appropriations, transfers of appropriations from other federal agencies, and the carry-over of prior
       years’ unobligated balances for multi-year and no-year appropriated funds.

       B. Basis of Presentation
       These financial statements have been prepared from the books and records of the FBI in
       accordance with U.S. generally accepted accounting principles issued by the Federal Accounting
       Standards Advisory Board (FASAB) and presentation guidelines in the Office of Management
       and Budget (OMB) Circular A-136, Financial Reporting Requirements. These financial
       statements are different from the financial reports prepared pursuant to OMB directives used to
       monitor and control the use of the FBI’s budgetary resources. To ensure that the FBI financial
       statements are meaningful at the entity level and to enhance reporting consistency within the
       Department, Other Assets and Other Liabilities as defined by OMB Circular A-136 have been
       disaggregated on the balance sheet. Other Assets include Advances and Prepayments, and Other
       Liabilities include Accrued Federal Employees’ Compensation Act Liabilities, Accrued Payroll
       and Benefits, Accrued Annual and Compensatory Leave Liabilities, Seized Cash and Monetary
       Instruments, and Contingent Liabilities.

       C. Basis of Consolidation
       The consolidated/combined financial statements include the accounts of the FBI. All significant
       proprietary intra-entity transactions and balances have been eliminated in consolidation. The
       Statements of Budgetary Resources are combined statements for Fiscal Years (FYs) 2010 and
       2009, and as such, intra-entity transactions have not been eliminated. The consolidated financial
       statements do not include centrally administered assets and liabilities of the federal government
       as a whole, such as General Services Administration (GSA) owned property and equipment, and



Federal Bureau of Investigation                       - 43 -
                             These notes are an integral part of the financial statements.
               Notes to the Financial Statements


1.     Summary of Significant Accounting Policies (continued)
       borrowings from the public by the U.S. Department of the Treasury (Treasury), which may in part
       be attributed to the FBI.

       D. Basis of Accounting
       Transactions are recorded on the accrual and budgetary bases of accounting. Under the accrual
       basis, revenues are recorded when earned and expenses are recorded when incurred, regardless of
       when cash is exchanged. Under the budgetary basis, however, funds availability is recorded
       based upon legal considerations and constraints. As a result, certain line items on the proprietary
       financial statements may not equal similar line items on the budgetary financial statements.

       E. Non-Entity Assets
       Non-entity assets represent assets temporarily controlled and administered by the FBI, but not
       available to the FBI as a financing source for operations. The FBI withholds state and local
       income taxes from taxable travel and transfer related expenses from FBI employees for
       subsequent disbursement to the applicable taxing authorities. Undisbursed withholdings at fiscal
       year-end are recorded as non-entity assets on the balance sheet with an offsetting liability. Cash
       temporarily held by the FBI as evidence for legal proceedings is also included on the balance
       sheet as a non-entity asset with an offsetting liability.

       F. Fund Balance with U.S. Treasury and Cash
       For the most part, the FBI does not maintain cash in commercial bank accounts. Receipts are
       processed by commercial banks for deposit to individual accounts maintained at the Treasury.
       Treasury and other Treasury-designated disbursing officers process cash receipts and
       disbursements as directed by authorized FBI certifying officers. Fund balances with the Treasury
       primarily represent appropriated, revolving, and trust funds available to pay current liabilities and
       finance future authorized purchases of goods and services. The FBI field offices and legal
       attachés maintain imprest and emergency funds to accommodate law enforcement cash
       requirements occurring outside normal banking system operating hours.

       G. Accounts Receivable
       Accounts receivable are established for amounts due to overpayments and for reimbursable
       expenses incurred by the FBI in providing goods and services ordered by other entities.
       Intragovernmental accounts receivable represent amounts due from federal entities and agencies.
       Other receivables represent amounts due from state and local governments, individuals, and other
       non-federal entities.
       The Allowance for Uncollectible Accounts calculation methodology is a percentage based on
       outstanding receivables weighted against the collections rate of those receivables. An analytical
       review is conducted annually to update the percentage applied to outstanding receivables. An
       invoice is deemed delinquent if it is unpaid after 30 days. Intragovernmental receivables are
       considered fully collectible.




Federal Bureau of Investigation                      - 44 -
                            These notes are an integral part of the financial statements.
               Notes to the Financial Statements


1.     Summary of Significant Accounting Policies (continued)

       H. Inventory and Related Property
       Operating materials and supplies consist of fuel, ammunition, spare aircraft parts, and office
       supplies. Operating materials and supplies are valued at acquisition cost. Supplies and materials
       are for entity use only, and are not for sale.

       I. General Property, Plant, and Equipment
       Property, plant, and equipment are stated at cost, less accumulated depreciation. The FBI
       capitalizes property, plant, and equipment with an acquisition cost (or individual asset recognition
       value) greater than $25 and a useful life greater than or equal to two years. Expenditures for
       property and equipment with an acquisition cost (or individual asset recognition value) less than
       $25 or a useful life of less than two years are charged to operating expenses as incurred.
       Since October 1, 2000, the FBI has capitalized internal use software and bulk purchases of
       Commercial Off-the-Shelf (COTS) software with an acquisition cost exceeding $500 and a useful
       life exceeding two years. Internal use software and bulk-purchases of COTS software not
       meeting this capitalization threshold or useful life timeframe are expensed.
       During FY 2002, the FBI implemented revised DOJ policy regarding FBI-funded improvements
       to facilities leased by, or for, the FBI. The revised DOJ policy requires capitalization of
       improvements exceeding $100 that expand the capacity of a facility, or otherwise upgrade it to
       serve a function different from, or significantly greater than, that originally intended.
       The FBI uses work-in-progress (WIP) accounts to capitalize expenditures associated with on­
       going leasehold improvements projects, the on-going construction of facilities and equipment,
       and the development of internal use software that meet FBI’s capitalization thresholds. Upon
       completion of the project(s), the applicable costs are transferred from WIP to a depreciable asset.
       Depreciation of capitalized assets (other than land and WIP accounts) is computed on a straight-
       line basis over the estimated useful economic life of the respective asset.
       While the FBI does own some land, buildings, and other structures, it leases its headquarters
       building, field office buildings, and warehouse space from the GSA. The FBI also leases office
       space from non-governmental entities, both in the U.S. and abroad.

       J. Advances and Prepayments
       Advances and prepayments classified as assets include funds disbursed to finance operations that
       exceed the total expenditures incurred. This amount also includes advances of funds to federal
       employees for official travel, and the balance of travel advances in excess of travel expenses
       claimed on reimbursement vouchers. When authorized by procurement regulations, payments
       made in advance of the FBI’s receipt of goods and services are recorded as prepaid charges at the
       time of prepayment and recognized as expenditures/expense when the related goods and services
       are received. Advances and prepayments involving other federal agencies are classified as Other
       Assets on the balance sheet.




Federal Bureau of Investigation                      - 45 -
                            These notes are an integral part of the financial statements.
               Notes to the Financial Statements


1.     Summary of Significant Accounting Policies (continued)

       K. Seized Property
       All property seized for forfeiture, including property with evidentiary value, is reported by the
       DOJ Assets Forfeiture Fund and Seized Asset Deposit Fund. The FBI has an established
       reporting threshold of $1 or more for Personal Property seized for evidentiary purposes. The FBI
       reports each seized personal property evidence record as a single unit of measure.
       Cash in the custody of the FBI for evidentiary purposes is recognized as an asset on the balance
       sheet with an offsetting liability. Non-monetary valuable property held as evidence is disclosed
       in Note 7 at the appraised or fair market value. It is not recognized as an asset on the balance
       sheet.
       Quantities of illegal drugs and firearms held as evidence are disclosed in Note 7 in accordance
       with Statement of Federal Financial Accounting Standards (SFFAS) No. 3, Accounting for
       Inventory and Related Property, and Federal Financial Accounting and Auditing Technical
       Release No. 4, Reporting on Non-Valued Seized and Forfeited Property. Reported quantities of
       drugs include only laboratory-analyzed substances over one kilogram (KG).

       L. Liabilities
       Liabilities represent the amount of monies or other resources likely to be paid by the FBI as the
       result of a transaction or an event that has already occurred. However, absent proper budget
       authority, the FBI cannot pay a liability. Liabilities for which an appropriation has not been
       enacted are considered unfunded liabilities. As a result, there is no certainty that corresponding
       future appropriations will be enacted to liquidate these unfunded liabilities.

       M. Contingencies and Commitments
       The FBI is party to various administrative proceedings, legal actions, and claims. The balance
       sheet includes an estimated liability for those legal actions where management and the Chief
       Counsel consider adverse decisions “probable” and amounts are reasonably estimable. Legal
       actions where management and the Chief Counsel consider adverse decisions “probable” or
       “reasonably possible” and the amounts are reasonably estimable are disclosed in Note 15,
       Contingencies and Commitments. However, there are cases where amounts have not been
       accrued or disclosed because the amounts of the potential loss cannot be estimated or the
       likelihood of an unfavorable outcome is considered “remote.”

       N. Annual, Sick, and Other Leave
       Annual leave and compensatory leave are expensed as earned with an offsetting liability.
       Liabilities are reduced as leave is taken. At the end of each fiscal quarter, the balance in the
       accrued annual leave liability account is adjusted to reflect valuation at current pay rates. To the
       extent current-year or prior-year appropriations are not available to fund annual and
       compensatory leave that is earned but not taken, funding will be obtained from future financing
       sources. Sick leave and other types of non-vested leave are expensed as taken.

       O. Interest on Late Payments
       Pursuant to the Prompt Payment Act of 1999 (31 U.S.C. 3901-3907), the FBI pays interest to
       commercial concerns for payments made after the payment due date. The payment due date is

Federal Bureau of Investigation                      - 46 -
                            These notes are an integral part of the financial statements.
               Notes to the Financial Statements


1.     Summary of Significant Accounting Policies (continued)
       generally 30 days after the receipt of a valid invoice by the designated activity, or 30 days after
       the receipt and acceptance of the goods or services, whichever is later. Interest is computed on
       the principal amount due at the rate of interest established by the Secretary of the Treasury, and
       published in the Federal Register, for interest payments under section 12 of the Contract Disputes
       Act of 1978 (41 U.S.C. 611). Interest is paid for the period beginning one day after the principal
       payment due date and ending on the date on which the principal payment is made.

       P. Retirement Plans
       With few exceptions, employees hired before January 1, 1984, are covered by the Civil Service
       Retirement System (CSRS), and employees hired on or after that date are covered by the Federal
       Employees Retirement System (FERS).
       The accompanying financial statements report expenses incurred by the FBI for required
       contributions made to retirement accounts administered by the Office of Personnel Management
       (OPM). For employees covered by the CSRS, the FBI contributes 7.0 percent of the support
       employees’ gross pay for normal retirement and for agents 7.5 percent. For employees covered
       by the FERS, the FBI contributes 11.2 percent of the support employees’ gross pay and for agents
       24.9 percent. All employees are eligible to contribute to the Federal Thrift Savings Plan (TSP).
       For employees covered by the FERS, the FBI automatically contributes 1.0 percent of gross pay
       and matches employee contributions up to 4.0 percent of gross pay. The FBI is not authorized to
       make automatic or matching contributions to the TSP for employees covered by the CSRS. The
       FBI’s financial statements do not report CSRS or FERS assets, accumulated plan benefits, or any
       related unfunded liabilities, which may be applicable to its employees. Such reporting is the
       responsibility of OPM.

       The FBI recognizes an additional expense and an offsetting imputed financing source for FBI
       Pension and Other Retirement Benefits Expense not covered by employee and FBI contributions;
       this expense is ultimately paid by OPM.

       Q. Federal Employee Compensation Benefits
       The Federal Employees’ Compensation Act (FECA) provides income and medical cost protection
       to covered federal civilian employees injured on the job, employees who have incurred a work-
       related occupational disease, and beneficiaries of any employee whose death is attributable to a
       job-related injury or occupational disease. Claims incurred for benefits for FBI employees under
       FECA are administered by the Department of Labor (DOL) and are ultimately paid by the FBI.
       The total FECA liability has two components: (1) unpaid billings and (2) an amount of estimated
       unbilled claims. Unpaid billings represent claims already paid by the DOL, which have not yet
       been reimbursed by the FBI. There is generally a two-year delay in the processing of the DOL
       payments through DOJ to the FBI. The FBI reports the unpaid billings as Accrued FECA
       Liabilities in Note 10.
       Additional unbilled claims are estimated by the DOL by applying actuarial projections to incurred
       (both reported and unreported) claims. The DOL calculates the actuarial liability of the federal
       government for future compensation benefits, which includes the expected liability for death,
       disability, medical, and miscellaneous approved compensation costs. The liability is determined
       using the paid-losses extrapolation method calculated over the next 37-year period. This method


Federal Bureau of Investigation                       - 47 -
                             These notes are an integral part of the financial statements.
               Notes to the Financial Statements


1.     Summary of Significant Accounting Policies (continued)
       uses historical benefit payment patterns related to a specific incurred period to predict the
       ultimate payments related to that period. The projected annual benefit payments were discounted
       to present value. The resulting federal government liability is then distributed by the DOL to the
       respective departments.
       DOJ calculates and distributes each bureau’s respective portion of the total DOJ actuarial liability
       that is recorded for reporting purposes only. The Actuarial FECA Liability, reported in Note 10,
       constitutes an extended estimate of future costs that will be obligated against budgetary resources
       the fiscal year in which the cost is actually paid to DOL by DOJ, and subsequently by the FBI.

       R. Intragovernmental Activity
       Intragovernmental cost and exchange revenue represent transactions made between two reporting
       entities within the federal government. Costs and exchange revenues with the public represent
       exchange transactions made between the reporting entity and a non-federal entity. The
       classification of revenue or cost as “intragovernmental” or “with the public” is defined on a
       transaction-by-transaction basis. The purpose of this classification is to enable the federal
       government to prepare consolidated financial statements, not to match public and
       intragovernmental revenue with the costs incurred to produce public and intragovernmental
       revenue.

       S. Revenues and Other Financing Sources
       The FBI receives funding to support its programs and execute its assigned mission from three
       primary sources: (1) annual, no-year, and multi-year appropriations by the U.S. Congress; (2)
       appropriated funds transferred to the FBI; and (3) reimbursable program funding. Appropriated
       funds (appropriated to the FBI or appropriated to other federal entities and transferred to the FBI
       for execution) represent the majority of the FBI’s operating budget.
       A source of revenue to the FBI are fees authorized by law for providing fingerprint-based and
       name-based Criminal History Record Information checks and other identification services
       submitted by authorized users for noncriminal justice purposes, including employment and
       licensing. The fee is based on full-cost recovery, and is determined using an activity-based cost
       model. By law, the FBI may set such fees at a level to include an additional amount to establish a
       fund to defray expenses for the automation of fingerprint identification and criminal justice
       information services and associated costs. Fee schedules are announced in the Federal Register
       following a public comment period. The current schedule went into effect on October 1, 2007.
       The FBI is not authorized to charge fees for fingerprint identification and criminal justice
       information services for law enforcement purposes.
       Other financing sources to the FBI include assets transferred to the FBI without reimbursement
       and imputed financing for: (1) FBI pension and other benefits expenses not covered by employee
       and FBI contributions and which are ultimately paid by OPM; and (2) expenses for legal claims
       paid out of the Treasury Judgment Fund on behalf of the FBI.
       Appropriations are recognized as financing sources when the goods and services authorized to be
       paid from the appropriations have been received and accepted, or when program or administrative
       expenses have been incurred. Revenue from reimbursable activities is recognized



Federal Bureau of Investigation                      - 48 -
                            These notes are an integral part of the financial statements.
               Notes to the Financial Statements


1.     Summary of Significant Accounting Policies (continued)
       when it is earned, i.e. when the goods or services ordered have been delivered or rendered to the
       ordering entity. The FBI also earns revenue from the sale of assets, principally vehicles.

       T. Earmarked Funds
       SFFAS No. 27, Identifying and Reporting Earmarked Funds defines “earmarked funds” as being
       financed by specifically identified revenues, often supplemented by other financing sources,
       which remain available over time. These specifically identified revenues and other financing
       sources are required by statute to be used for designated activities, benefits, or purposes, and must
       be accounted for separately from the government’s general revenues. The three required criteria
       for an earmarked fund are:
           1.	 A statute committing the federal government to use specifically identified resources and
               other financing sources only for designated activities, benefits, or purposes;
           2.	 Explicit authority for the earmarked fund to retain revenues and other financing sources
               not used in the current period for future use to finance the designated activities, benefits,
               or purposes; and
           3.	 A requirement to account for and report on the receipt, use, and retention of the revenues
               and other financing sources that distinguishes the earmarked fund from the government’s
               general revenues.
       There are no funds that meet the definition of an earmarked fund.

       U. Tax Exempt Status
       As an agency of the federal government, the FBI is exempt from all income taxes imposed by any
       governing body whether it is a federal, state, commonwealth, local, or foreign government.

       V. Use of Estimates
       The preparation of financial statements requires management to make estimates and assumptions
       that affect the reported amounts of assets and liabilities and the reported amounts of revenue and
       expenses during the reporting period. Actual results could differ from those estimates.

       W. Reclassifications
       The FY 2009 financial statements were reclassified to conform to the FY 2010 Departmental
       financial statement presentation requirements. The reclassifications had no material effect on
       total assets, liabilities, net position, change in net position, or budgetary resources as previously
       reported.
       X. Subsequent Events
       Subsequent events and transactions occurring after September 30, 2010 through the date of the
       auditors’ opinion have been evaluated for potential recognition or disclosure in the financial
       statements. The date of the auditors’ opinion also represents the date that the financial statements
       were available to be issued.




Federal Bureau of Investigation                        - 49 -
                              These notes are an integral part of the financial statements.
                 Notes to the Financial Statements


2.      Non-Entity Assets
Non-entity assets are assets that are held by the FBI but are not available for its use.


           As of September 30, 2010 and 2009
                                                                             2010                     2009
           Intragovernmental
             Fund Balance with U.S. Treasury                         $          8,031         $          8,236

           With the Public
            Cash and Monetary Assets                                            44,684                   40,098
               Total Non-Entity Assets                                          52,715                   48,334
               Total Entity Assets                                           6,164,515                5,397,258
               Total Assets                                          $       6,217,230        $       5,445,592




3.      Fund Balance with U.S. Treasury

          As of September 30, 2010 and 2009
                                                                               2010                    2009
          Fund Balances
            Trust Funds                                                  $             4          $          38
            General Funds                                                      3,686,204              3,283,792
            Other Fund Types                                                       8,031                  8,236
              Total Fund Balances with U.S. Treasury                     $     3,694,239          $   3,292,066

          Status of Fund Balances
            Unobligated Balance - Available                              $       547,896          $     737,212
            Unobligated Balance - Unavailable                                    398,981                322,822
            Obligated Balance not yet Disbursed                                2,742,550              2,225,753
            Other Funds (With)/Without Budgetary Resources                         4,812                  6,279
               Total Status of Fund Balances                             $     3,694,239          $   3,292,066


The Trust Funds amount includes the remaining funds resulting from the Violent Crime Reduction Trust
Fund which was established by the Violent Crime and Law Enforcement Act of 1994. The General Funds
amount includes the remaining funds resulting from budget authority to pay valid obligations. Other
Fund Types amount includes deposit clearing and suspense accounts temporarily held with Treasury until
such time they are required for use.
Unobligated Balance-Available includes current year apportionments that may be used for new
obligations. Unobligated Balance-Unavailable includes amounts appropriated in prior fiscal years that are


Federal Bureau of Investigation                        - 50 -
                              These notes are an integral part of the financial statements.
                Notes to the Financial Statements


3.      Fund Balance with U.S. Treasury (continued)
no longer available to fund new obligations, but can be used for upward and/or downward adjustments for
existing obligations. Additionally, this line includes amounts received that are restricted to future use and
as a result are not apportioned for current use. Obligated Balance not yet Disbursed includes obligations
of appropriated funds and obligations related to reimbursable activity. Other Funds (With)/Without
Budgetary Resources includes deposit clearing and suspense accounts.


4.      Cash and Monetary Assets


           As of September 30, 2010 and 2009
                                                                       2010                      2009
           Cash
             Undeposited Collections                             $          3,111            $     10,004
             Imprest Funds                                                  3,219                   1,955
             Other Cash                                                     2,567                   2,709
               Total Cash                                                   8,897                  14,668



           Monetary Assets
            Seized Monetary Instruments                                   42,120                   37,390
              Total Cash and Monetary Assets                     $        51,017             $     52,058


Undeposited Collections includes various in-transit accounts where account activities have been
processed in the FBI’s Financial Management System, but not deposited in the bank and reported to
Treasury via the SF-224 monthly submission. The Undeposited Collections balance primarily represents
timing differences in the recording of transactions between the FBI and Treasury.
Imprest Funds reflects monies dedicated for operational support, such as petty cash and emergency funds.
Other Cash consists of project-generated revenue from undercover operations.
Seized Monetary Instruments represents cash evidence obtained during FBI investigations held pending
release to the rightful owners.




Federal Bureau of Investigation                       - 51 -
                             These notes are an integral part of the financial statements.
                Notes to the Financial Statements


5.      Accounts Receivable, Net


           As of September 30, 2010 and 2009
                                                                      2010                           2009
           Intragovernmental
             Accounts Receivable                                $         158,737            $        137,156

           With the Public
            Accounts Receivable                                            31,600                      32,518
            Allowance for Uncollectible Accounts                           (1,216)                     (1,359)
               Total With the Public                                       30,384                      31,159
               Total Accounts Receivable, Net    $                        189,121            $        168,315


Intragovernmental receivables are based on services provided to other federal agencies for activities such
as name checks, requests for international travel, and training. The significant types of receivables
reported in With the Public include the Non-Federal User Fee Program and the National Name Check
Program. These customers are typically state and local government agencies conducting background
checks on individuals working in a field other than law enforcement.


6.      Inventory and Related Property, Net

          As of September 30, 2010 and 2009
                                                                            2010                      2009
          Operating Materials and Supplies
           Held for Current Use                                       $         7,927            $          8,804




Federal Bureau of Investigation                       - 52 -
                             These notes are an integral part of the financial statements.
                Notes to the Financial Statements


7.      Seized Property
Analysis of Change in Seized Property:
Seized Monetary Instruments (see also Notes 4 and 13) includes cash held by the FBI as evidence for
legal proceedings, and is reported on the Balance Sheet as an asset, with an offsetting liability. Non-
monetary evidence includes art, jewelry, and other valuables (see Note 1.K). According to DOJ
guidelines, evidence items subject to forfeiture are not disclosed by the seizing agency.
The item counts and financial value of non-monetary valuable property in the custody of the FBI as of
September 30, 2010 and September 30, 2009, for evidentiary purposes, and activity during each fiscal
year are summarized in the following charts in accordance with SFFAS No. 3, Accounting for Inventory
and Related Property. Items are disclosed at their appraised value or their estimated market value.
Adjustments to Seized Monetary Instruments, Personal Property, and Non-Valued Firearms include
corrections to previously reported item counts and valuation of seizures and disposals not reported in
previous financial statements due to timing differences between the recording of the evidence items and
the production of the financial statements, and evidence items previously omitted due to initial
classification as “forfeiture” items.
Drug evidence is presented in accordance with Federal Financial Accounting and Auditing Technical
Release No. 4, Reporting on Non-Valued Seized and Forfeited Property. Analyzed drug evidence
represents actual laboratory-tested classification and weight in kilograms (KG). Since enforcement of the
controlled substances laws and regulations of the U.S. is incidental to the mission of the FBI, only
individual seizures exceeding 1 KG in weight are reported.
“Adjustments” are primarily due to the validation of drug weights that occurs in fiscal years subsequent to
seizure. “Other Drugs” are substances seized for evidence not including cocaine, heroin, marijuana, or
methamphetamine. The actual drug weight may vary from seizure weight due to changes in moisture
content over time.
Unanalyzed drug evidence is not reported by the FBI because it is neither weighed nor confirmed by
laboratory chemists. Seized drug evidence must be analyzed and confirmed through laboratory testing to
be placed in one of the five categories of drugs above. “Disposals” occur when evidence is either
returned to the owner or destroyed in accordance with federal guidelines.




Federal Bureau of Investigation                       - 53 -
                             These notes are an integral part of the financial statements.
                 Notes to the Financial Statements


7.      Seized Property (continued)

        For the Fiscal Year Ended September 30, 2010

             Seized Property                  Beginning                                                      Ending
                Category                       Balance     Adjustments      Seizures         Disposals       Balance
        Seized for Evidence

          Seized Monetary
          Instruments            Value    $       37,390   $    (2,167) $       25,732   $      (18,835) $       42,120

          Personal Property      Number            1,263            47             270             (195)          1,385
                                 Value  $         25,791   $    (2,180) $       12,891   $      (11,810) $       24,692

          Non-Valued
            Firearms             Number           26,060           (94)          2,829           (1,231)         27,564
            Drug Evidence
              Cocaine            KG                6,309           381             185             (514)          6,361
              Heroin             KG                  256           164               9               (1)            428
              Marijuana          KG                4,230           (26)             75             (289)          3,990
              Methamphetamine    KG                  527           (47)             20              (19)            481
              Other Drugs        KG                  995           386             101             (249)          1,233
          Total Drug Evidence                     12,317           858             390           (1,072)         12,493




        For the Fiscal Year Ended September 30, 2009

             Seized Property                  Beginning                                                      Ending
                Category                       Balance     Adjustments      Seizures         Disposals       Balance
        Seized for Evidence

          Seized Monetary
          Instruments            Value    $       33,898   $    (4,977) $       28,735   $      (20,266) $       37,390

          Personal Property      Number            1,009           (23)            570             (293)          1,263
                                 Value  $         28,669   $   (18,489) $       23,933   $       (8,322) $       25,791

          Non-Valued
            Firearms             Number           26,002          (184)           699              (457)         26,060
            Drug Evidence
              Cocaine            KG                6,001           540             55              (287)          6,309
              Heroin             KG                  346           (81)             -                (9)            256
              Marijuana          KG                6,055        (1,776)           326              (375)          4,230
              Methamphetamine    KG                  317           204             29               (23)            527
              Other Drugs        KG                1,325          (370)            57               (17)            995
          Total Drug Evidence                     14,044        (1,483)           467              (711)         12,317




Federal Bureau of Investigation                            - 54 -
                                 These notes are an integral part of the financial statements.
                   Notes to the Financial Statements


7.        Seized Property (continued)
Method of Disposition of Seized Property:
During FYs 2010 and 2009, there were no seized properties forfeited, $11,589 and $7,458 of seized
property were returned to parties with a bona fide interest, and $19,056 and $21,130 were disposed of by
other means, respectively. Other means of disposition include seized property that is sold, converted to
cash, or destroyed.


8.        General Property, Plant and Equipment, Net

     As of September 30, 2010
                                                    Acquisition        Accumulated           Net Book        Useful
                                                       Cost             Depreciation          Value           Life
     Land and Land Rights                         $      12,590        $            -      $     12,590       N/A
     Construction in Progress                           277,706                     -           277,706       N/A
     Buildings, Improvements, and Renovations           557,035            (236,997)            320,038   10-50 years
     Other Structures and Facilities                     35,088               (8,448)            26,640   10-50 years
     Aircraft                                           195,566              (42,364)           153,202    5-30 years
     Boats                                                7,442               (4,116)             3,326    5-25 years
     Vehicles                                           241,139            (144,128)             97,011    2-25 years
     Equipment                                          856,435            (500,538)            355,897    2-25 years
     Leasehold Improvements                             279,628              (81,064)           198,564    3-10 years
     Internal Use Software                              225,468              (87,857)           137,611    3-10 years
     Internal Use Software in Development               615,005                     -           615,005       N/A
     Total                                        $ 3,303,102          $ (1,105,512)       $ 2,197,590


During FY 2010, the FBI purchased $142,287 in capital property from federal sources and $536,580 from
the public.

     As of September 30, 2009
                                                    Acquisition        Accumulated           Net Book        Useful
                                                       Cost             Depreciation          Value           Life
     Land and Land Rights                         $      12,567        $            -      $     12,567       N/A
     Construction in Progress                           242,150                     -           242,150       N/A
     Buildings, Improvements, and Renovations           546,845            (217,975)            328,870   10-50 years
     Other Structures and Facilities                     32,335               (6,968)            25,367   10-50 years
     Aircraft                                           154,869              (33,822)           121,047    5-30 years
     Boats                                                7,536               (3,658)             3,878    5-25 years
     Vehicles                                           215,391            (129,044)             86,347    2-25 years
     Equipment                                          808,764            (487,379)            321,385    2-25 years
     Leasehold Improvements                             177,006              (48,153)           128,853    3-10 years
     Internal Use Software                              167,023              (65,645)           101,378    3-10 years
     Internal Use Software in Development               443,009                     -           443,009       N/A
     Total                                        $ 2,807,495          $   (992,644)       $ 1,814,851


During FY 2009, the FBI purchased $166,148 in capital property from federal sources and $372,164 from
the public.


Federal Bureau of Investigation                            - 55 -
                                  These notes are an integral part of the financial statements.
                Notes to the Financial Statements


9.      Other Assets


           As of September 30, 2010 and 2009
                                                                     2010                         2009
           Intragovernmental
             Advances and Prepayments                          $         30,638               $       57,512




10.     Liabilities not Covered by Budgetary Resources

          As of September 30, 2010 and 2009
                                                                                2010                  2009
          Intragovernmental
            Accrued FECA Liabilities                                       $       31,231         $      32,785
            Other Unfunded Employment Related Liabilities                             191                   188
               Total Intragovernmental                                             31,422                32,973

          With the Public
           Actuarial FECA Liabilities                                             176,353               176,818
           Accrued Annual and Compensatory Leave Liabilities                      265,775               244,863
           Environmental and Disposal Liabilities (Note 11)                         9,755                     -
           Contingent Liabilities (Note 15)                                        66,762               128,978
              Total With the Public                                               518,645               550,659
              Total Liabilities not Covered by Budgetary Resources                550,067               583,632
              Total Liabilities Covered by Budgetary Resources                    998,845               813,719
              Total Liabilities                                            $    1,548,912         $   1,397,351


Liabilities not Covered by Budgetary Resources reports the receipt of goods and services, or eligible
events in the current or prior periods, for which funds to pay the liabilities have not been made available
through appropriations to the FBI.


11.      Environmental and Disposal Liabilities
In accordance with SFFAS No. 5, Accounting for Liabilities of the Federal Government, SFFAS No. 6,
Accounting for Property, Plant, and Equipment, and Technical Release No. 2, Determining Probable and
Reasonably Estimable for Environmental Liabilities in the Federal Government, federal agencies are
required to recognize liabilities for environmental cleanup costs when the future outflow or sacrifice of
resources is probable and reasonably estimable.
As environmental-related cleanup costs are paid, the liabilities are reduced. Additionally, estimates will
be revised periodically to account for material changes due to inflation, technology, and applicable




Federal Bureau of Investigation                        - 56 -
                              These notes are an integral part of the financial statements.
                 Notes to the Financial Statements


11.     Environmental and Disposal Liabilities (continued)
laws and regulations. Any material changes in the estimated total cleanup costs will be expensed when
estimates are revised and the liability balance adjusted.
Asbestos
Section 112 of the Clean Air Act requires the U.S. Environmental Protection Agency (EPA) to develop
and enforce regulations to protect the general public from exposure to airborne contaminants known to be
hazardous to human health. On March 31, 1971, the EPA identified asbestos as a hazardous pollutant,
and on April 6, 1973, the EPA first promulgated the Asbestos National Emissions Standards for
Hazardous Air Pollutants.
The FBI is recognizing an estimated asbestos cleanup liability this fiscal year. The FBI exercises due care
in determining the presence of contamination in adherence to the law, rules and regulations and policies
by the Clean Air Act. The Facilities and Logistics Service Division (FLSD), responsible for managing
and maintaining FBI and non-FBI owned facilities, has identified FBI-owned facilities in Quantico that
contain hazardous friable and non-friable asbestos. The facilities were built prior to 1986 with an
expected useful life of 50 years. The estimated total liability of $11,613 is based on the square footage of
the facilities that may be contaminated. This value, divided by the useful life and multiplied by the
number of years in service, is the estimated cleanup liability. The FBI recognized the estimated cleanup
liability of $9,755 and reported the offsetting charge as a “Change in Accounting Principles” in the
Statement of Changes in Net Position and Note 19. There are no other potentially responsible parties to
the environmental liability and there are no unrecognized amounts to disclose as of September 30, 2010.


12.     Leases
The majority of space occupied by the FBI is leased from the GSA. The rental cost is based on the area
occupied at the commercial rate per square foot, negotiated by the GSA along with appropriate GSA fees.
The majority of the leases are cancelable; however, if tenant improvement (TI) costs are amortized in the
lease and the FBI terminates prior to the end of the amortized period, the FBI will be responsible for the
unpaid TI costs.
Typically, the minimum lease term for a Resident Agency (RA) is five years and the maximum is 10
years. The minimum lease term for a field office is 15 years and the maximum is 30 years.
The FBI has a long-range program to relocate all field offices into single tenant, stand-alone, secure
facilities. All new leases for field offices and some RAs will be noncancelable, whereas the Headquarters
Annex lease will be cancelable. The GSA has not determined whether the Central Records Complex
lease is cancelable or noncancelable. The FBI currently anticipates relocating 19 field offices between
FY 2011 and FY 2017. A total of seven offices were relocated in FY 2009 and FY 2010. When field
offices relocate, often from space leased for 20 years or longer, the rental rates increase significantly to
accommodate the FBI's growth in workforce, space needs, and specialized security requirements.




Federal Bureau of Investigation                       - 57 -
                             These notes are an integral part of the financial statements.
               Notes to the Financial Statements


12.    Leases (continued)


          As of September 30, 2010 and 2009

          Operating Lease Expenses

          Lease Type                                                   2010                      2009
            Noncancelable Operating Leases                       $       85,656              $     77,795
            Cancelable Operating Leases                                 492,195                   447,167
              Total Operating Lease Expenses                     $      577,851              $    524,962




         As of September 30, 2010

         Future Noncancelable Operating Lease Payments Due

                                                   Land and               Machinery and
         Fiscal Year                               Buildings                Equipment                Total
           2011                                  $    138,510             $      10,250          $     148,760
           2012                                       210,771                     8,824                219,595
           2013                                       257,447                     8,910                266,357
           2014                                       270,469                     4,320                274,789
           2015                                       268,365                     4,320                272,685
           After 2015                               3,223,731                         -              3,223,731
            Total Future Noncancelable Operating
              Lease Payments                     $ 4,369,293               $       36,624        $   4,405,917




13.    Seized Cash and Monetary Instruments
Seized Cash and Monetary Instruments represents liabilities for seized assets held by the FBI pending
disposition. The Seized Cash and Monetary Instruments as of September 30, 2010 and 2009 are $42,120
and $37,390, respectively and are recorded in the financial statements.




Federal Bureau of Investigation                       - 58 -
                             These notes are an integral part of the financial statements.
                 Notes to the Financial Statements


14.     Other Liabilities
All Other Liabilities are current and presented in the following table:

          As of September 30, 2010 and 2009
                                                                                    2010                   2009
          Intragovernmental
            Employer Contributions and Payroll Taxes Payable                  $       56,213           $     46,624
            Other Post-Employment Benefits Due and Payable                               334                    314
            Other Unfunded Employment Related Liabilities                                191                    188
            Advances from Others                                                      57,850                 40,387
               Total Intragovernmental                                               114,588                 87,513

          With the Public
           Advances from Others                                                                2                  2
           Liability for Deposit Funds, Clearing Accounts and
              Undeposited Collections                                                    727                  3,425
           Other Liabilities                                                           2,568                  1,935
              Total With the Public                                                    3,297                  5,362
              Total Other Liabilities                                         $      117,885           $     92,875




15.     Contingencies and Commitments


                                                   Accrued                   Estimated Range of Loss
                                                  Liabilities               Lower             Upper
          As of September 30, 2010
            Probable                          $        66,762          $          66,762           $       172,217
            Reasonably Possible                                                   16,268                    21,088

          As of September 30, 2009
            Probable                          $       128,978          $       128,978             $       147,385
            Reasonably Possible                                                 17,838                      21,956




16.     Net Cost of Operations by Suborganization
The FBI reports on two of three DOJ Strategic Goals. The table below breaks out expenses and revenues
by these two goals. Additionally, the FBI utilizes decision units to identify operational net costs.
The Intelligence Reform and Terrorism Prevention Act of 2004 reads, “The Director of the Federal
Bureau of Investigation shall, establish a budget structure of the Federal Bureau of Investigation to reflect
the four principal missions of the Bureau as follows: Intelligence, Counterterrorism and


Federal Bureau of Investigation                         - 59 -
                               These notes are an integral part of the financial statements.
                       Notes to the Financial Statements


16.       Net Cost of Operations by Suborganization (continued)
Counterintelligence, Criminal Enterprises/Federal Crimes, [and] Criminal Justice Services.” Consistent
with the law, the FBI budgets according to these four broad categories, or decision units.
The Intelligence Decision Unit includes the Directorate of Intelligence, Intelligence Analysts, Field
Intelligence Group agents, the Language Program, the Terrorist Screening Center, Foreign Terrorist
Tracking Task Forces, Asset/Informant Funding, and several other programs. The
Counterterrorism/Counterintelligence Decision Unit includes the Counterintelligence Division,
Counterterrorism Division, a portion of the Cyber Division, and several other programs. The Criminal
Enterprises/Federal Crimes Decision Unit includes the Criminal Investigative Division, a portion of the
Cyber Division, and several other programs. The Criminal Justice Services Decision Unit consists
primarily of the CJIS Division. All FBI programs fall within a decision unit, though several programs
(particularly support programs) span multiple decision units.
Expenses are broken out by decision unit based on programmatic function and workload percentages.


  For the Fiscal Year Ended September 30, 2010
                                                                                      Suborganizations
                                                                          Counterterrorism/   Criminal Enterprises/
                                                 Intelligence Decision   Counterintelligence      Federal Crimes       Criminal Justice
                                                          Unit             Decision Unit           Decision Unit    Services Decision Unit       Consolidated

  Goal 1: Prevent Terrorism and Promote the Nation's Security
   Gross Cost                                    $            824,534    $        2,243,935   $          1,693,449    $          423,409     $         5,185,327
   Less: Earned Revenue                                       395,375                43,888                 33,591                35,142                 507,996
   Net Cost (Revenue) of Operations                           429,159             2,200,047              1,659,858               388,267               4,677,331

  Goal 2: Prevent Crime, Enforce Federal Laws, and Represent the Rights and Interests of the American People
   Gross Cost                                               611,686                1,664,678              1,256,297              314,109               3,846,770
   Less: Earned Revenue                                        8,798                   24,960               378,267              355,185                 767,210
   Net Cost (Revenue) of Operations                         602,888                1,639,718                878,030              (41,076)              3,079,560

  Net Cost (Revenue) of Operations               $          1,032,047    $        3,839,765   $          2,537,888    $          347,191     $         7,756,891




  For the Fiscal Year Ended September 30, 2009
                                                                                      Suborganizations
                                                                          Counterterrorism/   Criminal Enterprises/
                                                 Intelligence Decision   Counterintelligence      Federal Crimes       Criminal Justice
                                                          Unit             Decision Unit           Decision Unit    Services Decision Unit       Consolidated

  Goal 1: Prevent Terrorism and Promote the Nation's Security
   Gross Cost                                    $            696,377    $        1,698,244   $          1,543,610    $          281,963     $         4,220,194
   Less: Earned Revenue                                       459,733                37,371                 28,794                34,705                 560,603
   Net Cost (Revenue) of Operations                           236,644             1,660,873              1,514,816               247,258               3,659,591

  Goal 2: Prevent Crime, Enforce Federal Laws, and Represent the Rights and Interests of the American People
   Gross Cost                                               630,287                1,537,072              1,397,111              255,203               3,819,673
   Less: Earned Revenue                                       10,179                   29,420               357,932              321,158                 718,689
   Net Cost (Revenue) of Operations                         620,108                1,507,652              1,039,179              (65,955)              3,100,984

  Net Cost (Revenue) of Operations               $           856,752     $        3,168,525   $          2,553,995    $          181,303     $         6,760,575




Federal Bureau of Investigation                                              - 60 -
                                           These notes are an integral part of the financial statements.
                Notes to the Financial Statements


17.     Imputed Financing from Cost Absorbed by Others
Imputed Inter-Departmental Financing Sources are the unreimbursed (i.e. non-reimbursed and under-
reimbursed) portion of the full costs of goods and services received by the FBI from a providing entity
that is not part of the DOJ. In accordance with SFFAS No. 30, Inter-Entity Cost Implementation
Amending SFFAS 4, Managerial Cost Accounting Standards and Concepts, the material Imputed Inter-
Departmental financing sources recognized by the FBI are the actual cost of future benefits for the
Federal Employees Health Benefits Program (FEHB), the Federal Employees Group Life Insurance
Program (FEGLI), and the federal pension plans that are paid by other federal entities, and any
unreimbursed payments made from the Treasury Judgment Fund on behalf of the FBI. The Treasury
Judgment Fund was established by Congress and funded at 31 U.S.C. 1304 to pay in whole or in part the
court judgments and settlement agreements negotiated by the Department on behalf of agencies, as well
as certain types of administrative awards. Interpretation of Federal Financial Accounting Standards No. 2,
Accounting for Treasury Judgment Fund Transactions, requires agencies to recognize liabilities and
expense when unfavorable litigation outcomes are probable and the amount can be estimated and will be
paid by the Treasury Judgment Fund.
SFFAS No. 5 requires that employing agencies recognize the cost of pensions and other retirement
benefits during their employees’ active years of service. SFFAS No. 5 requires OPM to provide cost
factors necessary to calculate cost. OPM actuaries calculate the value of pension benefits expected to be
paid in the future, and then determine the total funds to be contributed by and for covered employees,
such that the amount calculated would be sufficient to fund the projected pension benefits. For
employees covered by CSRS, the cost factors are 30.1 percent of basic pay for regular, 51.1 percent law
enforcement officers, 23.5 percent regular offset, and 45.6 percent law enforcement officers offset. For
employees covered by FERS, the cost factors are 13.8 percent of basic pay for regular and 29.8 percent
for law enforcement officers.
The cost to be paid by other agencies is the total calculated future costs, less employee and employer
contributions. In addition, other retirement benefits, which include health and life insurance that are paid
by other federal entities, must also be recorded.
Imputed Intra-Departmental Financing Sources as defined in SFFAS No. 4, Managerial Cost Accounting
Concepts and Standards for the Federal Government, are the unreimbursed portion of the full costs of
goods and services received by the FBI from a providing entity that is part of the DOJ. Recognition is
required for those transactions determined to be material to the receiving entity. The determination of
whether the cost is material requires considerable judgment based on the specific facts and circumstances
of each type of good or service provided. SFFAS No. 4 also states that costs for broad and general
support need not be recognized by the receiving entity, unless such services form a vital and integral part
of the operations or output of the receiving entity. Costs are considered broad and general if they are
provided to many, if not all, reporting components and not specifically related to the receiving entity’s
output. The FBI does not have any imputed intra-departmental financing sources.




Federal Bureau of Investigation                       - 61 -
                             These notes are an integral part of the financial statements.
                  Notes to the Financial Statements


17.     Imputed Financing from Cost Absorbed by Others (continued)


          For the Fiscal Years Ended September 30, 2010 and 2009
                                                               2010                                             2009

          Imputed Inter-Departmental Financing
            Treasury Judgment Fund                                          $      117,846              $          5,075
            Health Insurance                                                       163,604                       157,519
            Life Insurance                                                             635                           583
            Pension                                                                 72,779                        44,328
              Total Imputed Financing Sources                               $      354,864              $        207,505




18.     Information Related to the Statement of Budgetary Resources
Apportionment Categories of Obligations Incurred:
The apportionment categories are determined in accordance with the guidance provided in Part 4,
Instructions on Budget Execution, of OMB Circular A-11, Preparation, Submission and Execution of the
Budget. Category A represents resources apportioned for calendar quarters. Category B spending
includes supplemental “bridged” funding for: Overseas Contingency Operations, Render Safe mission,
and FBI Laboratory requirements. Category B also includes funds appropriated for digital technology
upgrades; mortgage fraud investigations; biometric operations; training operations at Quantico, Virginia;
secure facilities; and improvised explosive devices analysis. These are per OMB's guidance.

                                                                                        Reimbursable        Total Obligations
                                                              Direct Obligations         Obligations            Incurred
         For the Fiscal Year Ended September 30, 2010
           Obligations Apportioned Under:
              Category A                                       $     7,800,198      $       1,214,320       $      9,014,518
              Category B                                               478,216                      -                478,216
           Total                                               $     8,278,414      $       1,214,320       $      9,492,734

         For the Fiscal Year Ended September 30, 2009
           Obligations Apportioned Under:
              Category A                                       $     7,579,608      $       1,149,687       $      8,729,295
              Category B                                                92,710                      -                 92,710
           Total                                               $     7,672,318      $       1,149,687       $      8,822,005


Status of Undelivered Orders:
Undelivered Orders (UDO) represents the amount of goods and/or services ordered, which have not been
actually or constructively received. This amount includes any orders which may have been prepaid or
advanced but for which delivery or performance has not yet occurred.




Federal Bureau of Investigation                             - 62 -
                                   These notes are an integral part of the financial statements.
                    Notes to the Financial Statements


18.     Information Related to the Statement of Budgetary Resources (continued)

          As of September 30, 2010 and 2009
                                                                                        2010                           2009
          UDO Obligations Unpaid                                                 $       2,334,713           $          2,081,621
          UDO Obligations Prepaid/Advanced                                                  80,434                        119,515
           Total UDO                                                             $       2,415,147           $          2,201,136


Legal Arrangements Affecting Use of Unobligated Balances:
Unobligated balances represent the cumulative amount of budget authority that is not obligated and that
remains available for obligation based on annual legislative requirements and other enabling authorities,
unless otherwise restricted. The use of unobligated balances is restricted based on annual legislation
requirements and other enabling authorities. Funds are appropriated on an annual, multi-year, and no-
year basis. Appropriated funds shall expire on the last day of availability and are no longer available for
new obligations. Unobligated balances in unexpired fund symbols are available in the next fiscal year for
new obligations unless some restrictions have been placed on those funds by law. Amounts in expired
fund symbols are not available for new obligations, but may be used to adjust previously established
obligations.
Statement of Budgetary Resources vs. the Budget of the United States Government:
The Statement of Budgetary Resources versus the Budget of the U.S. Government as of September 30,
2009 is presented below.
The reconciliation as of September 30, 2010 is not presented because the submission of the Budget of the
United States Government (Budget) for FY 2012, which presents the execution of the FY 2010 Budget,
occurs after publication of these financial statements. The DOJ Budget Appendix can be found on the
OMB website (http://www.whitehouse.gov/omb/budget) and will be available in early February 2011.
Offsetting Receipts and Expired Funds are reported in the FBI’s Statement of Budgetary Resources, but
not reported in the Budget.

         For the Fiscal Year Ended September 30, 2009
           (Dollars in Millions)
                                                                                                   Distributed
                                                             Budgetary         Obligations         Offsetting
                                                             Resources          Incurred            Receipts               Net Outlays
         Statement of Budgetary Resources (SBR)            $        9,882    $         8,822   $                 2     $           6,587

         Funds not Reported in the Budget
           Expired Funds                                             (517)             (196)                      -                   -
           Offsetting Receipts                                          -                 -                      (2)                  1

         Budget of the United States Government            $        9,365    $         8,626   $                  -    $          6,588




Federal Bureau of Investigation                                  - 63 -
                                        These notes are an integral part of the financial statements.
               Notes to the Financial Statements


19.    Restatements and Adjustments
Cleanup Cost Adjustments
FASAB Technical Bulletin 2006-1, paragraphs 40 and 44, directs, upon implementation, that any cleanup
cost liability recognized shall be shown in the Statements of Changes in Net Position (SCNP) as a prior
period adjustment. The FBI recognized the estimated total cleanup cost for friable and non-friable
asbestos as a liability, described in Note 11, and reported the offsetting charge as a “Change in
Accounting Principles” in the SCNP, presented in the table below.


                As of September 30, 2010 and 2009
                                                                       2010                     2009

                Statement of Changes in Net Position               $     (9,755)            $          -




Federal Bureau of Investigation                      - 64 -
                            These notes are an integral part of the financial statements.
                     Notes to the Financial Statements


20.        Reconciliation of Net Cost of Operations (proprietary) to Budget (formerly the Statement of
           Financing)


For the Fiscal Years Ended September 30, 2010 and 2009
                                                                                                     2010               2009
Resources Used to Finance Activities
      Budgetary Resources Obligated
         Obligations Incurred                                                                $       9,492,734      $   8,822,005
         Less: Spending Authority from Offsetting Collections
                and Recoveries                                                                       1,416,924          1,478,340
         Obligations Net of Offsetting Collections and Recoveries                                    8,075,810          7,343,665
         Less: Offsetting Receipts                                                                         253              1,668
         Net Obligations                                                                             8,075,557          7,341,997
   Other Resources
       Transfers-In/Out Without Reimbursement                                                           69,206             61,342
       Imputed Financing from Costs Absorbed by Others (Note 17)                                       354,864            207,505
       Net Other Resources Used to Finance Activities                                                  424,070            268,847
Total Resources Used to Finance Activities                                                           8,499,627          7,610,844
Resources Used to Finance Items not Part of the Net Cost of
   Operations
       Net Change in Budgetary Resources Obligated for Goods, Services,
            and Benefits Ordered but not Yet Provided                                                 (303,377)          (534,878)
       Resources That Fund Expenses Recognized in Prior Periods (Note 21)                              (64,235)               (81)
       Budgetary Offsetting Collections and Receipts That do not
            Affect Net Cost of Operations                                                                  253              1,668
       Resources That Finance the Acquisition of Assets                                               (677,990)          (540,859)
       Other Resources or Adjustments to Net Obligated Resources
            That do not Affect Net Cost of Operations                                                       4,847              (632)
Total Resources Used to Finance Items not Part of the Net Cost
   of Operations                                                                                     (1,040,502)        (1,074,782)
Total Resources Used to Finance the Net Cost of Operations                                   $       7,459,125      $   6,536,062

Components of Net Cost of Operations That Will not Require
   or Generate Resources in the Current Period

   Components That Will Require or Generate Resources
       in Future Periods (Note 21)                                                           $          29,230      $      48,003
   Depreciation and Amortization                                                                       193,657            185,828
   Revaluation of Assets or Liabilities                                                                 24,101             12,042
   Other                                                                                                50,778            (21,360)
Total Components of Net Cost of Operations That Will not
   Require or Generate Resources in the Current Period                                                 297,766            224,513
Net Cost of Operations                                                                       $       7,756,891      $   6,760,575




Federal Bureau of Investigation                               - 65 -
                                     These notes are an integral part of the financial statements.
                  Notes to the Financial Statements


21.	    Explanation of Differences Between Liabilities not Covered by Budgetary Resources and
        Components of Net Cost of Operations Requiring or Generating Resources in Future
        Periods
Liabilities that are not covered by realized budgetary resources and for which there is not certainty that
budgetary authority will be realized, such as the enactment of an appropriation, are considered liabilities
not covered by budgetary resources. These liabilities totaling $550,067 and $583,632 as of September 30,
2010 and 2009, respectively, are discussed in Note 10, Liabilities not Covered by Budgetary Resources.
Decreases in these liabilities result from current year budgetary resources that were used to fund expenses
recognized in prior periods. Increases in these liabilities represent unfunded expenses that were
recognized in the current period. These increases along with the change in the portion of exchange
revenue receivables from the public, which are not considered budgetary resources until collected,
represent components of current period net cost of operations that will require or generate budgetary
resources in future periods. The changes in liabilities not covered by budgetary resources and receivables
generating resources in future periods are comprised of the following:

   For the Fiscal Years Ended September 30, 2010 and 2009
                                                                                                  2010            2009
   Resources that Fund Expenses Recognized in Prior Periods
       Decrease in Actuarial FECA Liabilities                                               $         (465)   $            -
       Decrease in Accrued FECA Liabilities                                                         (1,554)              (81)
       Decrease in Contingent Liabilties                                                           (62,216)                -
         Total Resources that Fund Expenses Recognized in Prior Periods                     $      (64,235)   $          (81)

   Components of Net Cost of Operations That Will Require or Generate Resources in Future Periods
     Increase in Accrued Annual and Compensatory Leave Liabilities                       $      20,912        $     20,907
     Increase in Environmental and Disposal Liabilities                                           9,755                -
     (Increase)/Decrease in Exchange Revenue Receivable from the Public                             351              1,407
     Other
        Increase in Actuarial FECA Liabilities                                                        -              5,916
        Increase in Contingent Liabilities                                                            -              8,208
        Increase in Other Unfunded Employment Related Liabilities                                     3                 15
        (Increase)/Decrease in Surcharge Revenue Receivable from Other Federal Agencies          (1,791)            11,550
           Total Other                                                                           (1,788)            25,689
           Total Components of Net Cost of Operations That Will Require or Generate
           Resources in Future Periods                                                   $      29,230        $     48,003




Federal Bureau of Investigation                             - 66 -
                                  These notes are an integral part of the financial statements.
U.S. DEPARTMENT OF JUSTICE


FEDERAL BUREAU OF INVESTIGATION



   REQUIRED SUPPLEMENTARY INFORMATION
               (UNAUDITED)




                  - 67 -
This page intentionally left blank.





           - 68 -
                                                                     U.S. Department of Justice

                                                                   Federal Bureau of Investigation

                                                              Required Supplementary Information

                                                          Combining Statement of Budgetary Resources

                                                                     By Major Appropriation

                                                                            Unaudited

                                                          For the Fiscal Year Ended September 30, 2010


Dollars in Thousands                                                                                                                     2010
                                                                                  CNST             VCRP            S&E              TOTAL

Budgetary Resources
   Unobligated Balance, Brought Forward, October 1                            $     254,582    $           -   $    805,452     $     1,060,034

   Recoveries of Prior Year Unpaid Obligations                                        2,426               44        164,093            166,563

   Budget Authority
       Appropriations Received                                                      239,915                -       7,682,622          7,922,537
       Spending Authority from Offsetting Collections
           Earned
             Collected                                                                     -               -       1,338,006          1,338,006
             Change in Receivables from Federal Sources                                    -               -           1,699              1,699
           Change in Unfilled Customer Orders
             Advance Received                                                             -                -          17,463             17,463
             Without Advance from Federal Sources                                         -                -        (106,807)          (106,807)
   Subtotal Budget Authority                                                        239,915                -       8,932,983          9,172,898

   Nonexpenditure Transfers, Net, Actual                                             30,000                -         60,116             90,116

   Permanently not Available                                                               -               -         (50,000)           (50,000)

Total Budgetary Resources                                                     $     526,923    $          44   $   9,912,644    $    10,439,611

Status of Budgetary Resources
   Obligations Incurred
       Direct                                                                 $     360,923    $          40   $   7,917,451    $     8,278,414
       Reimbursable                                                                       -                -       1,214,320          1,214,320
           Total Obligations Incurred                                               360,923               40       9,131,771          9,492,734
   Unobligated Balance - Available
       Apportioned                                                                  165,716                4        382,176            547,896
           Total Unobligated Balance - Available                                    165,716                4        382,176            547,896
   Unobligated Balance not Available                                                     284               -        398,697            398,981


Total Status of Budgetary Resources                                           $     526,923    $          44   $   9,912,644    $    10,439,611


Change in Obligated Balance
   Obligated Balance, Net - Brought Forward, October 1
       Unpaid Obligations                                                     $     102,765    $          38   $   2,707,319    $     2,810,122
       Less: Uncollected Customer Payments from Federal Sources                           -                -         584,369            584,369
           Total Unpaid Obligated Balance, Net - Brought Forward, October 1         102,765               38       2,122,950          2,225,753
   Obligations Incurred, Net                                                        360,923               40       9,131,771          9,492,734
   Less: Gross Outlays                                                               81,427               34       8,833,021          8,914,482
   Less: Recoveries of Prior Year Unpaid Obligations, Actual                          2,426               44         164,093            166,563
   Change in Uncollected Customer Payments from Federal Sources                           -                -         105,108            105,108

   Obligated Balance, Net - End of Period
       Unpaid Obligations                                                           379,835                -       2,841,976          3,221,811
       Less: Uncollected Customer Payments from Federal Sources                           -                -         479,261            479,261
           Total Unpaid Obligated Balance, Net - End of Period                $     379,835    $           -   $   2,362,715    $     2,742,550

Net Outlays
   Gross Outlays                                                              $      81,427    $          34   $   8,833,021    $     8,914,482
   Less: Offsetting Collections                                                           -                -       1,355,469          1,355,469
   Less: Distributed Offsetting Receipts                                                  -                -             253                253
Total Net Outlays                                                             $      81,427    $          34   $   7,477,299    $     7,558,760




Federal Bureau of Investigation                                           - 69 -
                                                                     U.S. Department of Justice

                                                                   Federal Bureau of Investigation

                                                              Required Supplementary Information

                                                          Combining Statement of Budgetary Resources

                                                                     By Major Appropriation

                                                                            Unaudited

                                                          For the Fiscal Year Ended September 30, 2009


Dollars in Thousands                                                                                                                      2009
                                                                                  CNST             VCRP             S&E              TOTAL
Budgetary Resources

   Unobligated Balance, Brought Forward, October 1                            $     175,218    $          501   $    900,767     $     1,076,486

   Recoveries of Prior Year Unpaid Obligations                                        2,844                 -        267,662            270,506

   Budget Authority
       Appropriations Received                                                      153,491                 -       7,182,700          7,336,191
       Spending Authority from Offsetting Collections
           Earned
             Collected                                                                     -                -       1,442,098          1,442,098
             Change in Receivables from Federal Sources                                    -                -         (86,453)           (86,453)
           Change in Unfilled Customer Orders
             Advance Received                                                             -                 -         (26,471)           (26,471)
             Without Advance from Federal Sources                                         -                 -        (121,340)          (121,340)
   Subtotal Budget Authority                                                        153,491                 -       8,390,534          8,544,025

   Nonexpenditure Transfers, Net, Actual                                                   -                -          (8,978)            (8,978)

Total Budgetary Resources                                                     $     331,553    $          501   $   9,549,985    $     9,882,039



Status of Budgetary Resources

   Obligations Incurred
       Direct                                                                 $      76,971    $          501   $   7,594,846    $     7,672,318
       Reimbursable                                                                       -                 -       1,149,687          1,149,687
           Total Obligations Incurred                                                76,971               501       8,744,533          8,822,005
   Unobligated Balance - Available
       Apportioned                                                                  254,298                 -        482,914            737,212
           Total Unobligated Balance - Available                                    254,298                 -        482,914            737,212
   Unobligated Balance not Available                                                     284                -        322,538            322,822


Total Status of Budgetary Resources                                           $     331,553    $          501   $   9,549,985    $     9,882,039
Change in Obligated Balance

   Obligated Balance, Net - Brought Forward, October 1
       Unpaid Obligations                                                     $      55,047    $           85   $   2,207,819    $     2,262,951
       Less: Uncollected Customer Payments from Federal Sources                           -                 -         792,162            792,162
           Total Unpaid Obligated Balance, Net - Brought Forward, October 1          55,047                85       1,415,657          1,470,789
   Obligations Incurred, Net                                                         76,971               501       8,744,533          8,822,005
   Less: Gross Outlays                                                               26,409               548       7,977,371          8,004,328
   Less: Recoveries of Prior Year Unpaid Obligations, Actual                          2,844                 -         267,662            270,506
   Change in Uncollected Customer Payments from Federal Sources                           -                 -         207,793            207,793

   Obligated Balance, Net - End of Period
       Unpaid Obligations                                                           102,765                38       2,707,319          2,810,122
       Less: Uncollected Customer Payments from Federal Sources                           -                 -         584,369            584,369
           Total Unpaid Obligated Balance, Net - End of Period                $     102,765    $           38   $   2,122,950    $     2,225,753
Net Outlays
   Gross Outlays                                                              $      26,409    $          548   $   7,977,371    $     8,004,328
   Less: Offsetting Collections                                                           -                 -       1,415,627          1,415,627
   Less: Distributed Offsetting Receipts                                                  -                 -           1,668              1,668
Total Net Outlays                                                             $      26,409    $          548   $   6,560,076    $     6,587,033




Federal Bureau of Investigation                                           - 70 -
U.S. DEPARTMENT OF JUSTICE


FEDERAL BUREAU OF INVESTIGATION



            APPENDIX




              - 71 -
This page intentionally left blank.





           - 72 -
                                                                  APPENDIX


              OFFICE OF THE INSPECTOR GENERAL

             ANALYSIS AND SUMMARY OF ACTIONS

               NECESSARY TO CLOSE THE REPORT


      The Office of the Inspector General (OIG) provided a draft of the
Independent Auditors’ Report on Internal Control over Financial Reporting to
the FBI. The FBI’s response is incorporated in the Independent Auditors’
Report on Internal Control over Financial Reporting of this final report. The
following provides the OIG analysis of the response and summary of actions
necessary to close the report.

Recommendation Number:

1.	   Resolved. The FBI concurred with our recommendation. This
      recommendation can be closed when subsequent annual financial
      statement audit testing verifies that the FBI has fully implemented the
      updates to the certification, accreditation, and security assessment
      processes and effectively addressed the identified deficiency.




                                    - 73 -
